<html>
<title> - IMPROVING THE NO CHILD LEFT BEHIND ACT'S ACCOUNTABILITY SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



     IMPROVING THE NO CHILD LEFT BEHIND ACT'S ACCOUNTABILITY SYSTEM

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN SAN RAFAEL, CA, APRIL 27, 2007

                               __________

                           Serial No. 110-27

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                                 ------

                     U.S. GOVERNMENT PRINTING OFFICE

34-604 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001








                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Luis G. Fortuno, Puerto Rico
Linda T. Sanchez, California         Rob Bishop, Utah
John P. Sarbanes, Maryland           Todd Russell Platts, Pennsylvania
Joe Sestak, Pennsylvania             Ric Keller, Florida
David Loebsack, Iowa                 Joe Wilson, South Carolina
Mazie Hirono, Hawaii                 Charles W. Boustany, Jr., 
Phil Hare, Illinois                      Louisiana
Lynn C. Woolsey, California          John R. ``Randy'' Kuhl, Jr., New 
Ruben Hinojosa, Texas                    York
                                     Dean Heller, Nevada





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 27, 2007...................................     1

Statement of Members:
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
    Woolsey, Hon. Lynn C., a Representative in Congress from the 
      State of California........................................     3
        Additional submissions for the record:
            Chappell, Torri, mother and teacher..................    42
            Greenwood, Lenard C., teacher, Montgomery High 
              School, Santa Rosa, CA.............................    43
            Phillips, Diane, parent of public school children....    44
            Valens, Amy, retired teacher, Lagunitas School 
              District, San Geronimo School......................    45

Statement of Witnesses:
    Blake, Melanie, teacher, Sonoma Valley High School...........    23
        Prepared statement of....................................    25
    Gonzalez, Pepe, vice principal, Venetia Valley K-8 School....    20
        Prepared statement of....................................    22
    Liddell, Sharon E., Ed.D., superintendent, Santa Rosa City 
      Schools....................................................    11
        Prepared statement of....................................    13
    Schott, Elizabeth W., principal, McDowell Elementary School..    15
        Prepared statement of....................................    17
    Tempes, Fred, senior program director, WestEd................     6
        Prepared statement of....................................     8






















 
     IMPROVING THE NO CHILD LEFT BEHIND ACT'S ACCOUNTABILITY SYSTEM

                              ----------                              


                         Friday, April 27, 2007

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 330, Marin County Board of Supervisors Chambers, 3501 
Civic Center Drive, San Raphael, California, Hon. Dale E. 
Kildee [chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Woolsey.
    Staff Present: Julius Lloyd Horwich, Policy Advisor for the 
Subcommittee on Early Childhood, Elementary and Secondary 
Education.
    Chairman Kildee. A quorum being present, the hearing of 
this Subcommittee will come to order.
    Pursuant to Committee Rule 12[a] any member may submit an 
opening statement in writing, which will be made part of the 
permanent record, and I recognize myself for an opening 
statement.
    First of all, I want to thank the Supervisors of Marin 
County for the use of this beautiful facility. I said to your 
Congresswoman, why do you come to Washington with all this 
beauty here? But, she does it out of duty and responsibility.
    I'm very pleased to welcome the public and our witnesses to 
this hearing of the Subcommittee on Early Childhood, Elementary 
and Secondary Education, Improving the No Child Left Behind 
Act's Accountability System.
    I'm Congressman Dale Kildee from Flint, Michigan, and I'm 
the Chairman of this Subcommittee. I am especially pleased to 
be joined by my friend and colleague, Congresswoman Lynn 
Woolsey. I have enjoyed working with Congresswoman Woolsey for 
more than 14 years. She's a leading voice in the House on so 
many issues that touch every-day Americans, including education 
and, of course, the war in Iraq.
    I particularly value her input as a member of this 
Subcommittee on the reauthorization of No Child Left Behind.
    As Chairman, one of my priorities is to work with my 
colleagues, Democrats and Republicans, and educators in 
Washington and around the country, to improve and reauthorize 
No Child Left Behind this year.
    Our country's success in the 21st Century economy will be 
directly tied to our ability to continue to produce a high-
quality labor force, and that ability is, of course, directly 
tied to our ability to provide every child with a world-class 
education.
    Since 2002, Congress and the President, however, have under 
funded No Child Left Behind by $56 billion, and the President's 
proposed budget for this year, 2008, would under fund the law 
by another $15 billion, for a total of $71 billion.
    California is larger than Michigan, but just in 2006, 
because of this short-changing, Michigan lost $331 million in 
Title I funding, and you can multiply that many times out here 
in California, which certainly would have helped a great deal 
here.
    However, I'm hopeful that with the new Congress in 
Washington this year we'll start to do better. Our budget 
resolution does increase two areas of funding, education and 
health.
    But, funding is only part of improving No Child Left 
Behind. I expect the law's basic structure, standards, testing, 
disaggregation of the various groups, adequate yearly progress, 
and the effects or consequences, some might say penalties, for 
schools that do not make AYP, to remain in place.
    But, I believe that we should have a critical discussion 
within that basic structure to give more flexibility to those 
people who are there on the front line, whether they be School 
Board members, superintendents, teachers, or parents, to see 
how we can give some flexibility, and that is why we came here. 
We had a hearing in Flint. We are going up to Philadelphia. I'm 
going tomorrow to Arizona, because I've been in Washington for 
30 years now as a member of Congress, and the longer I'm there 
the more I realize that that's not where all the wisdom lies, 
the wisdom is around the country.
    And, we recognize, too, that this law. like every law, was 
written on Capitol Hill and not Mount Sinai, and even Moses 
went up the second time. So, we want to really get your input, 
and your input will make a difference, particularly, on the 
flexibility on the local level, and you can challenge it in any 
way you want.
    So, these field hearings are very, very important. In my 
home town of Flint, we heard from superintendents, teachers and 
parents, and today's panel includes an expert in school reform, 
a superintendent, two principals, and a teacher, and I look 
forward now to hearing their perspectives on how No Child Left 
Behind has worked, and what we can to make it work better.
    I'm confident that their testimony will play an important 
role in the Committee's understanding of how the law has 
impacted not only Marin and Sonoma Counties and other parts of 
California, but also places like them all around the country.
    I look forward to working together with Congresswoman 
Woolsey, with my Ranking Member, Mr. Castle, Chairman Miller, 
and Ranking Member McKeon, both of whom are also from 
California, and all the Members of the Committee on a 
bipartisan reauthorization of No Child Left Behind.
    In addition to our witnesses, those who would like to 
submit written testimony for the official printed record, and 
this record will be printed, and bound, and kept in the 
Archives of the United States, and used by us before they go 
into the Archives, may e-mail it to the Subcommittee Counsel to 
my left here. And, do that, please, by the close of business 
next week, Friday, May 4th.
    I yield now to Representative Woolsey for her opening 
remarks.
    Ms. Woolsey. And, I, too, want to thank the Board of 
Supervisors and President of the Board, Steve Kinsey, but, 
particularly, his right arm, Liza Crosse, who made all this 
possible for us to be here today, and look out there, and thank 
all of you for being here on such a beautiful day, being 
interested in our children and their education.
    But, most of all, I want to thank you, Mr. Kildee, for 
choosing the 6th Congressional District to hold the only No 
Child Left Behind hearing in California. Believe me, I am 
honored, and I thank you so very much, and I thank George 
Miller, Representative Miller, who is the Chair of the 
Education and Labor Committee, for agreeing with Congressman 
Kildee that, yes, indeed, this is the perfect place to be 
hearing about what we need to do and consider before we fix No 
Child Left Behind, because today our witnesses represent a 
cross section of the experts in our district. It was very hard 
to come down to five individuals on a hearing about growth 
models.
    We could go on all day talking about what we need to do to 
fix No Child Left Behind, and we all know that. So, that's why 
I'm going to encourage everybody that's here that wants to 
submit written testimony into the record, and if you didn't get 
that e-mail, my office can provide that to you, or you can send 
your testimony through my office, and we will get it to the 
Committee.
    And, what you are going to do today is help us reshape the 
No Child Left Behind Act, and that's why I have been looking 
forward to this hearing. It's your experience, it's your 
thoughts on the law, it's your reaction to what's gone on for 
the last six years, that will make the difference in whether or 
not we reauthorize No Child Left Behind so that we improve upon 
it, and learn from all of your experience.
    And, I say fix it, I don't say reauthorize it, or rewrite 
it, I say fix it, take what's good about it and keep it, and 
change what isn't working. And we are lucky, now we have 
experience on No Child Left Behind, we can take a second bite 
of the apple. It's before us. Now, it's important that we take 
advantage of this time to make the changes.
    We will be working within the framework of the law. We need 
to make adjustments based upon the experience of school 
districts, of students, of teachers, parents, all around the 
country, and I, for one, look forward to working with my 
colleagues in coming up with the best possible fix.
    My fix will be fair, it will be flexible, and fully funded, 
and that's what I'm going to be measuring all of the changes 
against. And, as we move forward, it's very important to me 
that no child is left behind, and one of the best ways is the 
principle of fundamental fairness.
    The standards movement has challenged everyone to do a 
better job, and to strive, and certainly to understand what 
kids aren't getting the best of the best, and which ones are 
actually able to survive in this structure we have. And, 
standards send a very important message to students and their 
families, and that message is it doesn't matter what a 
student's background is, where a student lives, if a student is 
rich or poor, that student has every right to expect an 
education that will take he or she as far as that student can 
possibly go.
    But, every school isn't starting from and in the same 
place. Every school district doesn't have the same challenges. 
Low-income schools, for one, a school with a great number of 
English learners, have very different challenges from a school 
where a majority of the students come from the wealthier 
families, wealthier educated families also.
    Having the same standard for every school, I don't believe 
is the best option for our students. That's why I'm looking 
forward to working with the Chairman to develop more flexible 
criteria, such as growth models, that would clearly reward 
movement in the direction of AYP, even if the bar isn't cleared 
in the first year.
    We also need to give schools additional flexibility, and 
under No Child Left Behind we can branch out from the exclusive 
focus on standardized tests, and we know testing is useful, I 
mean, education and testing go hand in hand, but it can't be 
the only evaluation tool. So, by relying too heavily on the 
single criterion I believe we leave the whole child often 
behind, and we may fail to capture the uniqueness of any one 
school or one school district and, certainly, the individual 
challenges those schools, and students, and districts face.
    I think we need to be fair. We also need to be flexible, 
and to be open to additional measurements on whether a student 
is progressing, such as the student's work portfolio, or 
decreases in grade-to-grade retention rates. So, I'm looking 
forward to working with the Committee to develop a law that is 
more flexible, and a law that educates the whole child.
    Finally, we need to review and revive, that's for sure, 
funding for No Child Left Behind. As the Chairman said, if one 
includes the most recent budget request for Fiscal Year 2008 
this President has short changed No Child Left Behind to the 
tune of more than $70 billion, in fact, California lost $1.3 
billion for Title I in 2006 by not fully funding No Child Left 
Behind.
    And, as an aside, when we fully fund No Child Left Behind 
we also have to on the Federal side, we have to fully fund our 
commitment to IDEA.
    So, when the President puts in place what he considers his 
number one program, when he first introduced No Child Left 
Behind, and then he doesn't fund it, I believe he's slamming 
the door in the face of the very schools, the very districts, 
and the children who need the help the most.
    So, in the upcoming authorization I look forward to working 
with Chairman Kildee and the Committee to ensure that we uphold 
the principles of fairness, flexibility and full funding.
    So, let's hear from you, and you don't have to agree with 
me, you don't have to agree with the Chairman, but know that 
what you have to say is very, very important to us, and I thank 
you for coming.
    Chairman Kildee. Thank you very much, Congresswoman 
Woolsey.
    One privilege I have is, when I'm in a district I can tell 
one story about the Congressperson from that district. I'd been 
a Senior Member on the Budget Committee, and Representative 
Woolsey came into Congress, and a member of the Budget 
Committee was appointed to the Cabinet, so there was a vacancy, 
and she was put on about halfway through the budget mark-up, 
and we were working about 3:00 in the morning, and just 
crunching numbers, crunching numbers, and she was assigned then 
to serve on the Budget Committee to take the place of the 
person that had moved over to the Cabinet.
    And, she had come in, probably about 1:00 in the morning, 
we were just crunching numbers and saying, well, we can 
probably cut $100 million here from this program, she listened, 
finally she said, ``Well, but how will that affect the people 
served by this program?''
    She brought us back to reality, that budgeting is, 
essentially, priorities and values, not just number crunching, 
and she really actually changed the tone of the rest of the 
budget mark-up, and I'll always remember that.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Kildee. Great moment.
    Without objection, this is part of our housekeeping, all 
Members of this Subcommittee that are not here will have seven 
calendar days to submit additional materials or questions for 
the hearing record.
    I'd like now to introduce the very distinguished panel of 
witnesses here with us this morning. Dr. Fred Tempes is the 
Director of the WestEd Comprehensive School Assistance Program, 
where he oversees that agency's school and district reform 
work, and also directs the California Comprehensive Assistance 
Center.
    WestEd is a non-profit research, development and service 
agency that works with school districts and schools to improve 
student achievement.
    Prior to coming to WestEd Dr. Tempes directed the 
California Department of Education's School and District 
Accountability Division, and the Department's Curriculum 
Instruction and Assessment Division.
    I will now yield to Congresswoman Woolsey to introduce our 
other witnesses.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Dr. Sharon Liddell has been the Superintendent of Santa 
Rosa City Elementary and Secondary Schools since 2003. She has 
spent 26 years in education as a teacher and an administrator, 
as well as providing professional development opportunities to 
teachers and administrators.
    Elizabeth Schott has been the principal at McDowell 
Elementary School in Petaluma, California, since 2004. She has 
served as a Principal and teacher in various elementary and 
middle schools around California. Ms. Schott is a doctoral 
candidate in educational leadership at the University of 
Nevada, Reno.
    Pepe Gonzalez has served as the Vice Principal of Venetia 
Valley Elementary School, formerly called Gallinas Elementary 
School in Marin County since 2005. Before becoming Vice 
Principal, he taught for three years in a bilingual 5th grade 
classroom. Mr. Gonzalez is a first generation American who was 
born and raised in Point Reyes Station, California.
    Melanie Blake, Melanie is currently a teacher at Sonoma 
Valley High School. She has been an educator for over 20 years, 
working with diverse student populations from early childhood 
through college. She holds a Master's degree in Educational 
Leadership with an emphasis in Assessment.
    Welcome, all of you.
    Chairman Kildee. Welcome to all our witnesses, and for 
those of you who have not testified before this Subcommittee 
before, I will explain our lighting system and the five-minute 
rule.
    Everyone, including Members, and we do this in Washington, 
too, is limited to five minutes of presentation or questioning. 
Your green light will be illuminated when you begin to speak. 
When you see the yellow light, it means that you have one 
minute remaining, and when you see the red light it means your 
time has expired and you need to conclude your testimony. Now, 
we won't interrupt you in the middle of a paragraph or a 
thought, and there's no ejection seat, but when you see the red 
light try to wind it down.
    And, please be certain as you testify to turn on and speak 
into the microphone in front of you, and turn it off when you 
are finished.
    We will now hear from our first witness, Dr. Tempes.

            STATEMENT OF DR. FRED TEMPES, DIRECTOR,
         WESTED COMPREHENSIVE SCHOOL ASSISTANCE PROGRAM

    Mr. Tempes. Thank you, Chairman Kildee, Representative 
Woolsey, thank you for inviting me to testify today.
    As Mr. Kildee said, I am Fred Tempes, I direct the 
Comprehensive School Assistance Program at WestEd. Over the 
past several years we've worked with over 100 schools and 
several dozen districts in various program improvements, either 
under NCLB or state-designed sanctions, and we've learned some 
things over the years working with these schools, which I can 
very briefly summarize for you.
    How do schools and districts improve? No surprises here. 
Schools need to guarantee all students access to a rich, 
rigorous, and coherent curriculum. They need to provide those 
students with skilled teachers. They need to put in place 
principals who are leaders and district administrators who are 
leaders, and then they need to hold themselves accountable for 
making sure plans actually get implemented and students 
actually learn and progress.
    I think NCLB has done a great service in moving this agenda 
forward. They provide a framework, NCLB provides a framework, 
and much of the work that needs to be done now really falls to 
states, districts and schools to do.
    But, we are here today to talk about the accountability 
system, and, Ms. Woolsey, I like your word fix NCLB, I think 
there's some fixes that we can look at in the accountability 
system.
    First of all, let me say the accountability system in 
general has been a good thing. It's caused schools and 
districts, and parents and community members, to focus on 
student achievement, disaggregating student achievement by the 
various significant sub-populations has caused the achievement 
of the few to no longer mask the achievement of the many, so 
it's caused the right focus.
    But, and we get to some of the fixes, to be effective an 
accountability system must be judged as reasonable by those 
being held accountable, and, unfortunately, under the NCLB 
accountability plans established by most states we are fast 
approaching the point at which the majority of participants in 
the system no longer view the system as reasonable. Here's why.
    To be reasonable, a system must set realistic targets that 
motivate all to strive to achieve them. When participants in 
the system no longer view the system's goals as attainable, 
they cease to work to attain those goals.
    California provides an excellent example of what the 
problem is. If you look in my testimony, there's one chart in 
page four, and it's the stair-step chart that all of my 
colleagues here are familiar with. Many states have taken 
advantage of the stair-step approach to accountability, giving 
you three years at one plateau, stepping up to the next 
plateau. We are at the end of the last permitted plateau.
    In California, and the chart I've given you is for high 
school English language proficiency, we have set a target of 
22.3 percent English language proficient for our students in 
California. This is not an unreasonable target. I challenge any 
superintendent to stand up in front of his or her board and say 
we are not going to be able to educate 22 percent of our kids. 
But, now we are at the point where the steps start ratcheting 
up rapidly, 11 percent next year, 11 percent the following 
year, 11 percent the year after that.
    Over the past three years, the State of California has 
averaged just under three percentage point gains a year. We can 
do better in California. We can do better than three percentage 
points, but we are not going to make 11 percentage points a 
year over the next decade. It's just not going to happen, the 
system is no longer reasonable to the majority of the 
participants.
    Second, a reasonable accountability system must have 
realistic consequences, particularly, at the district level 
where states are required to apply sanctions on districts, most 
of the consequences of those districts falling into corrective 
action are just not realistic.
    One is hard pressed to imagine the California State Board 
of Education taking any of the following actions in any but the 
most extreme circumstances.
    One, replace the district staff. Remove individual schools 
from the jurisdiction of the district and arrange for 
alternative governance. Appoint a trustee in place of the 
superintendent and school board, or abolish the district. As 
Mr. Kildee pointed out, I worked for 20 years in the California 
Department of Education, that's not going to happen, and even 
if it did there is no evidence that that would make things 
better. Not realistic consequences.
    So, how can we approve or fix the accountability system? 
Many, especially in California, have argued, and probably will 
argue here today, for a growth model. That's fine, I think 
there are good arguments for a growth model. They are also good 
arguments for a status model like NCLB is today.
    I think the crucial factor, however, is whatever system we 
envision in the next go around it must be reasonable. Teachers, 
principals, and district administrators need to be able to go 
to work in the morning believing that if they work hard to 
provide all students a standards-based curriculum they can meet 
the targets laid out for them. I don't think that's the case 
now.
    How can we make these targets more reasonable? Three things 
seem obvious in the current framework. One, revisit the targets 
for special education and English learners, and I'll talk a bit 
more about English learners in a moment. Increase the time 
frame for reaching the targets, and as both Mr. Kildee and Ms. 
Woolsey have alluded to this morning, increase the funding to 
districts to do this work, via Title I.
    Let me talk about English learners, because this is a 
crucial issue for us in California. 25 percent of our students 
are English learners, another 18 percent come from homes where 
a language other than English is spoken.
    Under NCLB, we require these students after a year to take 
a test in English in California. This test is not designed for 
English learners. It's not valid, it's not reliable, that's why 
they are English learners, they are not ready to take this 
test.
    The other thing is, when kids exit English learner status, 
they can then exit the group of students that's being 
evaluated, so we take out the successful students and then hold 
districts accountable for the rest of the students. Keep those 
students in that testing group.
    I can see the red light is on, so I'll skip over to the 
time frame issue. Districts, after two years in program 
improvement fall into corrective action. Schools, after five 
years in program improvement fall into corrective action. 
That's an unrealistic time frame for districts, and I'll 
imagine that my colleagues here will probably chime in on that. 
Districts need more time. It takes a long time to turn a 
district ship around, and they are willing to do it, they need 
some external support to do that. I think that you ought to 
look at supporting external agencies to support schools and 
districts, and I will yield whatever seconds I have remaining.
    [The statement of Dr. Tempes follows:]

   Prepared Statement of Fred Tempes, Senior Program Director, WestEd

    Mr. Chairman and Members of the Committee. I want to thank you for 
the opportunity to provide testimony as you begin to deliberate 
reauthorization of the No Child Left Behind Act. My name is Fred 
Tempes, and I am the Director of the Comprehensive School Assistance 
Program at WestEd. As you may know, WestEd is a nonprofit research, 
development, and service agency with headquarters in San Francisco and 
with 14 offices throughout the country. Success for every learner is 
our goal at WestEd, a goal we have been pursuing for over 40 years.
    At WestEd I oversee our work in support of schools and districts 
identified as needing improvement under NCLB or other state-specific 
criteria. Over the past several years we have been engaged with more 
than 100 schools and more than two dozen districts in California, 
Arizona, Nevada, and Hawaii as they seek to raise student achievement 
and close the achievement gap. I should add that I also serve as the 
Director of the California Comprehensive Assistance Center, funded by 
the U.S. Department of Education and charged with helping to build 
state capacity to implement NCLB. Prior to joining WestEd, I spent more 
than two decades in the California Department of Education, and my last 
position there was Director of School and District Accountability. 
Hence, I believe that I have a good perspective on accountability 
systems as they are envisioned at the state level and dealt with at the 
local level.
    Let me start my remarks by very briefly summarizing for you what we 
have learned about how schools and districts improve. In the standards-
based educational world envisioned in NCLB, the path to improvement is 
clearly marked. Schools and districts need to:
    <bullet> Guarantee all students have access to a rigorous and 
coherent curriculum.
    <bullet> Hire and retain skilled teachers to implement the 
curriculum.
    <bullet> Place strong principals and district administrators in 
leadership positions.
    <bullet> Be accountable for making sure improvement plans result in 
actions and actions result in gains in student achievement.
    NCLB has done much to move this reform framework forward, and 
although much remains do be done, many of the tasks ahead are best 
addressed by states and districts operating within the framework 
established by NCLB. For example, in the curriculum arena all states 
now have academic standards and annual assessments designed to measure 
student progress in meeting those standards, thus creating the 
structure for a standards-based curriculum. States and districts now 
need to work on aligning instructional materials and strategies to 
those standards, using formative assessments to monitor progress during 
the year, and providing appropriate professional development to support 
curriculum implementation and effective instruction.
    The focus of today's hearing is, however, on the fourth component 
of the framework for school and district improvement as we see it: a 
workable system to hold adults accountable for giving all students 
access to a rich and rigorous curriculum that leads to improvements in 
student achievement.
    The accountability system called for in the No Child Left Behind 
Act is undeniably the most controversial feature of the Act, and with 
good reason. Supporters of the current system rightly point to the fact 
that NCLB has caused schools and districts to pay attention to whether 
all students are meeting state standards. And the requirement that 
achievement results be disaggregated by significant subgroups means 
that the high achievement of some groups can no longer mask the low 
achievement of others.
    However, to be effective, an accountability system must be judged 
as reasonable by those being held accountable. Unfortunately, under the 
NCLB accountability plans established by most states, we are fast 
approaching the point at which the majority of participants in the 
system no longer view the system as reasonable. Here's why.
    First, a reasonable system must set realistic targets that motivate 
all to strive to reach them. When participants in the system no longer 
view the system's goals as attainable, they cease to put forth the 
effort to reach them.
    California provides a good example of the problem. Table 1 displays 
the percent proficient targets for high schools in English Language 
Arts in California.

            Table 1.--California Percent Proficient Targets
                English Language Arts: High School Level

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Like many other states, California has taken advantage of the 
``stair step'' provision in NCLB that allows for a more gradual ramping 
up of proficiency targets. Hence, the proficiency target in English 
Language Arts for the current school year for high schools is that 
22.3% of students will be at or above the proficient level. That is not 
an unreasonable target. But those in the system looking beyond the 
current year will see that for next year the target increases by 11 
percentage points and 11 points every year thereafter. Over the past 
three years, the state as a whole has averaged just under 3 percentage 
point gains in English Language Arts per year. Although we can do 
better, almost no one in the system believes these out-year goals are 
attainable for all schools and districts.
    Second, a reasonable system must have realistic consequences 
attached to failure. Particularly at the district level, where states 
are required to apply sanctions, most of the consequences of falling 
into Corrective Action identified in NCLB are just not realistic. One 
is hard pressed to see the California State Board of Education taking 
any of the following actions in any but the most extreme cases: Replace 
the district staff, remove individual schools from the jurisdiction of 
the district and arrange for alternative governance, appoint a trustee 
in place of the superintendent and school board, or abolish the 
district. And beyond the feasibility of these actions, there is little 
empirical or other evidence that they have been or will be effective.
    How, then, can we improve the current accountability system? Many, 
especially in California, have argued for a system that rewards steady 
growth rather than the current model that only acknowledges attainment 
of proficiency. There are good arguments for either system, but the 
crucial factor, regardless of the type of system, must be 
reasonableness. Teachers, principals, and district administrators need 
to be able to go to work in the morning believing that if they work 
hard to provide all students a standards-based curriculum, they can 
meet the targets laid out for them. How can we make targets more 
reasonable? Three things seem obvious: revisit the targets for the 
Special Education and English Learner (see discussion below) subgroups, 
increase the time frame for reaching the targets, and increase the 
funding available to our most challenged schools and districts via 
Title I.
    Because one in four students in California is an English Learner 
and another 18% come from homes where a language other than English is 
spoken, targets for those learning English is a crucial topic here. 
Under NCLB, California has established ambitious yet reasonable targets 
for the rate at which students acquire proficiency in English. However, 
two revisions to the current system or a future system would improve 
reasonableness greatly. First, the requirement that English Learners 
take the same English language tests designed for English speakers in 
English Language Arts and mathematics after one year in our public 
schools is based on the unreasonable and unvalidated assumption that 
all students learning English should be academically proficient in 
English after one year. Testing English Learners on tests developed for 
native speakers of English should be delayed until those tests can 
yield psychometrically reliable and valid measures of student 
achievement.
    Second, NCLB does a great service to English Learners by including 
them as a subpopulation in the accountability system. Schools and 
districts should be held accountable for the academic achievement of 
these students. However, the current system requires removal of the 
very students who give evidence of school and district success, former 
English Learners who have met academic and English language proficiency 
targets, thus depressing the scores of the English Learner subgroup 
unjustifiably. Students initially identified as English Learners should 
remain a part of that subgroup for accountability purposes as long as 
they are enrolled in the district.
    The question of meaningful consequences for failing to meet 
achievement targets is, of course, inextricably linked to the question 
of reasonable targets. Assuming realistic targets, the Committee should 
look at both the time frames in which sanctions are applied and the 
level of support given schools and districts in the different stages of 
sanctions.
    The question of time frames is particularly salient at the district 
level. Whereas schools are given four years to right their ship after 
failing to make AYP, school districts will find themselves in 
Corrective Action after failing to make AYP at the district level after 
just two years. Research and most district superintendents will tell 
you making systemic change at the district level takes much more time. 
The short time line for district improvement sometimes leads to taking 
short-term measures, such as focusing intervention resources on those 
students closest to making AYP, that do not result in long-term 
benefits to all students in the district. Like schools, districts 
should be given at least four years after failing to meet AYP before 
facing the more drastic, and one hopes--in the future--more 
constructive, consequences of Corrective Action.
    Finally, our experience is that schools and districts need support 
in their efforts to improve. If they had all the skills, staff, and 
time they needed to improve, they would be doing the things they all 
know need to be done. But frontline educators tell us every day that 
they can best do their job if they receive support from highly 
qualified, external school improvement experts--both to help them see 
the areas in need of attention more clearly and to provide the ongoing 
support and coaching necessary to ensure that plans result in actions.
    Currently there is no provision in law for such external support 
services. Regional Educational Laboratories, which at one time offered 
similar support, are now focused on a rather narrow research agenda. 
The Comprehensive Centers, such as the one I direct, did offer 
technical assistance directly to schools in a former grants cycle, but 
they now provide capacity building support to state departments of 
education exclusively.
    I do not argue with these shifts in focus, because both further 
education research and state-level support are greatly needed. But the 
changes have left a deficit of federally supported, school and 
district-focused, external support services. Mr. Kildee was the 
principal author of legislation supporting the National Diffusion 
Network in the 1980s and early '90s. Nothing like this Network 
currently exits, but schools and districts need expert assistance more 
now than at any time in recent history.
    I support the creation of a new, federally funded, regionally 
based, external support program designed to increase school capacity. 
(In its paper on ESEA reauthorization, the Knowledge Alliance [formerly 
NEKIA] called such an effort a ``School Improvement Venture Fund for 
Using Research-Based Knowledge.'') If such a technical assistance 
program, however named, were to be established and well-supported in 
the years ahead, schools and districts would again have a place to turn 
for expert support.
    I thank the Committee for allowing me this time and for 
consideration of my testimony.
                                 ______
                                 
    Chairman Kildee. Thank you, Dr. Tempes, and we'll be asking 
you some questions.
    Mr. Tempes. Certainly.
    Chairman Kildee. And, your entire testimony will be 
included in the record.
    Mr. Tempes. Thank you.
    Chairman Kildee. Dr. Liddell.

        STATEMENT OF DR. SHARON LIDDELL, SUPERINTENDENT,
        SANTA ROSA CITY ELEMENTARY AND SECONDARY SCHOOLS

    Ms. Liddell. Good morning, Chairman Kildee, Congresswoman 
Woolsey, and Members of the Committee. Since my paper is about 
seven to eight minutes, and you have full copies, I will try to 
go over the highlights, but we've already brought up some 
important points that I may have to back up on.
    My roles as K-12 educator have covered the spectrum, and it 
is my honor to testify today on behalf of Santa Rosa City 
School Board and our Elementary and High School District.
    As a reference, I want to tell you that we have a community 
of 157,000 residents. We have approximately 17,000 students in 
29 schools. Approximately, 4,100 of those students are English 
learners, primarily, Hispanic, so this topic is very important 
to us.
    Special education includes 2,100 students, and 
approximately 5,000 students receive free and reduced lunches 
in our district.
    We are an urban district, although we look very much like a 
suburban district, but we have declining enrollment also, which 
affects our funding very much.
    The era of accountability has been of great benefit to our 
students. We are making progress. Since 2003, we have now 
removed three schools from program improvement, we have schools 
who are meeting their targets in all subgroups. We have a 
program improvement high school who has now met their targets 
for two years, but barely missed exiting the program 
improvement assistance because of participation rates, which is 
another element that we need to talk about.
    We have now added a distinguished school to our list, so we 
feel like our schools are making progress. There are four 
elements I'd like to talk with you about, assessment and 
accountability through growth models, in comparison to other 
states, subgroup impacts and funding impacts.
    We've talked about AYP, or Adequate Yearly Progress, being 
based on externally-imposed targets. The California Academic 
Performance Index is a growth model that sets individualized 
growth targets for school-wide growth and for each subgroup. 
This state system sets individual targets for the subgroups 
that are attainable.
    Once the schools implement the research-based, standards-
based curriculum programs, schools are accountable in this 
model for academic improvement, and build a sense of confidence 
and accomplishment as targets are met.
    As part of a successful growth model, which ultimately 
meets the goals of NCLB, there should be assurance that schools 
use formative assessments to provide more timely information at 
both elementary and secondary levels. Transferring that data 
information into direct instruction is of utmost importance to 
improve the teaching and learning.
    Second, assessment and accountability in comparison to 
other states, we have very rigorous standards in California. 
Benchmarks for proficiency, standards in other states are not 
considered consistent from state to state. Should states 
continue to be compared to one another in the NCLB 
accountability? It's important to ensure that states are 
consistent in standards and in benchmarks for proficiency.
    The Academic Performance Index is based on assessments in 
the four core areas in Grades 2-11 on the California Standards 
Test, and on the California High School Exit Exam results for 
Grades 10-12. This broader accountability of the API provides a 
more comprehensive, wide-screen picture as opposed to a data 
snapshot.
    Optimum national comparisons and accountability will result 
from consistent standards, benchmarks, and use of those 
formative assessments to determine trends in education and to 
help train our work force.
    Area three, subgroup impacts, again, English learners, 
special education students, economically disadvantaged 
students. These students count in several different groups 
toward our scores. Students who belong to more than one group 
are counted in each subgroup, which results in statistical 
over-representation of the student. One method of adjusting 
this would be to count the student toward each group as an 
equal fraction, totaling one student.
    Flexibility in assessing identified English learners during 
the first three years after school entry is an important 
aspect. It requires specific achievement for students for up to 
three years. We know now it doesn't take seven years for 
English learners to become proficient, but we do need some time 
to prepare them.
    Funding impacts are very, very important. Finances at the 
local level are stretched, using creative legal funding 
combinations to fund these formative assessments and to follow 
student progress rather than waiting for the final API and AYP 
at the end of the year.
    The ability to establish these structures and to continue 
them long enough to make a difference create huge impacts on 
districts and schools. Unfunded or low-funded mandates 
including special education must be addressed for school 
districts to be successful at the NCLB endeavor, incorporating 
new areas of targeted accountability and flexibility, while 
acknowledging progress, all offer the promise of an 
accountability system that will fairly and accurately reflect 
the performance of students and schools. Most importantly, they 
offer the promise of improved academic performance to meet the 
global demands facing our students.
    Thank you for this opportunity to present our 
recommendations.
    Mr. Chairman, I would like to request permission to enter 
information that I have here into the record. It is information 
that relates to progress that can be made through certain 
structures, and other recommendations.
    Chairman Kildee. Without objection, it will be included in 
the record.
    Ms. Liddell. Thank you.
    [The statement of Dr. Liddell follows:]

    Prepared Statement of Sharon E. Liddell, Ed.D., Superintendent,
                        Santa Rosa City Schools

    Good morning, Chairman Kildee, Congresswoman Woolsey, and Members 
of the Subcommittee. My name is Dr. Sharon Liddell, Superintendent of 
Santa Rosa City Schools in Santa Rosa, California. My roles as a K-12 
educator have covered the spectrum over the past 27 years. It is my 
honor to testify today on behalf of Santa Rosa City School Board and 
our elementary and high school districts. My testimony will address the 
topic, ``Improving the No Child Left Behind (NCLB) Act's Accountability 
System.''
    As a reference for my testimony, let me briefly describe our 
district. Santa Rosa is a community of 157,000 residents. Santa Rosa 
City Schools (SRCS), the largest school district north of San 
Francisco, serves approximately 17,000 students in grades kindergarten 
through twelve. Approximately 4,100 students are English Language 
Learners, primarily Hispanic. Special Education includes 2,100 students 
in various groups. About 5,000 students receive free and reduced 
lunches. We are an urban district with declining enrollment.
    The era of accountability has been of great benefit to students in 
Santa Rosa City Schools. As a result, we know more than ever before 
about the academic progress of each and every student. It has caused us 
to develop professional learning communities, examine student data, use 
data to make instructional decisions, institute specialized programs, 
and to develop pyramids of interventions for struggling students. 
However, there are some areas which could be improved in NCLB.
Assessment and Accountability through Growth Models
    Adequate Yearly Progress (AYP) is currently based on meeting a 
certain set of externally imposed targets. As it is currently designed, 
this accountability does not recognize schools or subgroups for 
incremental growth from one year to the next.
    The California Academic Performance Index (API) is a growth model 
that sets individualized growth targets for school-wide growth and for 
each subgroup. The state API system sets individual targets for each 
subgroup that are attainable once schools implement research-based, 
standards-based curriculum programs. Schools are accountable for 
academic improvement and build a sense of confidence and accomplishment 
as targets are met.
    As a part of a successful growth model which ultimately meets the 
goals of NCLB, there should be assurance that states, districts, and 
schools use 6-8 week, formative assessment systems in order to provide 
better, more timely information about student learning at both 
elementary and secondary levels. Transferring the data information into 
direct instruction is of utmost importance. Therefore, require that the 
assessments provide useful diagnostic information to improve teaching 
and learning.
Assessment and Accountability in Comparisons to Other States
    California established rigorous grade-level standards in all the 
content areas and endeavored to refine these standards since their 
inception in 1999. The criterion-based assessment system, known as the 
California Standards Tests (CST) was written to assess these standards 
annually for all students in grades 2-11. The Elementary and Secondary 
Education Act (ESEA) gave each state the authority to set its own 
standards. In order to maintain high standards, California chose to use 
the fourth-highest band of five as ``proficient'' to measure student 
growth in relation to standards, considered some of the most rigorous 
in the United States. Benchmarks for proficiency are not considered 
consistent from state to state. Should states continue to be compared 
to one another in NCLB accountability, it is important to ensure that 
states are consistent in standards and in benchmarks for proficiency.
    Adequately Yearly Progress (AYP) results are based upon English 
Language Arts (ELA) CST and Mathematics CST results of students in 
grades 2-8 and the California High School Exit Exam (CAHSEE) results 
for grade 10. The ELA and mathematics performances of ninth and 
eleventh grades are not a consideration of the accountability system. 
The Academic Performance Index (API) on the other hand is based on 
assessments in the four core areas in grades 2-11 on the CST and on 
CAHSEE results for grades 10-12. The broader accountability stroke of 
the API provides a comprehensive, widescreen picture as opposed to a 
data snapshot.
    Optimum national comparisons in accountability will result from 
consistent standards, benchmarks, and the use of formative assessment 
systems to provide ongoing, timely information about student learning 
at both elementary and secondary levels. Data collected can be used as 
diagnostic information and improved direct instruction practices for 
all learners, as well as to determine trends in education. Refined 
achievement targets can be further developed based on rates of success 
actually achieved by the most effective public schools.
Assessment and Subgroup Impacts
    Students may be identified in one or more subgroups, such as 
English Learner, Special Education, and economically disadvantaged. 
Students who belong to more than one are counted in each sub-group 
which results in statistical over-representation of the student. One 
method of adjusting this would be to count that student toward each 
group as an equal fraction totaling one student.
    English Learners come to school districts with quite varied 
backgrounds, i.e. elementary and secondary students with little or no 
English skills; some with limited academic background in their home 
language; some with parents who do not speak English or have academic 
skills in their home language; some with backgrounds rich in academic 
skills and multiple languages. Flexibility in assessing identified 
English Learners during the first three years after school entry, while 
requiring specific achievement for students for up to three years, will 
allow students to make academic gains toward meeting state standards 
and English speaking skills in preparation for sustainable performance 
in determining AYP. Alternate, U. S. Department of Education- approved 
assessments, seeking specific gains may be used during that three-year 
period to gauge English proficiency and content knowledge.
    Special Education students represent specific impacts involving 
individual education programs (IEPs), accommodations, and 
modifications, which may include conflicts with the Individuals with 
Disabilities Education Act (IDEA). Flexibility in use of approved 
alternative assessments, such as out-of-level assessments, would allow 
schools to meet the requirements of both IDEA and NCLB.
    Students who qualify as economically disadvantaged students may or 
may not be part of the English Learner and/or the Special Education 
subgroups. However, background elements may cause students to resemble 
one or both subgroups. Low academic vocabulary, minimal pre-school 
experiences, low-frequency of reading experiences, all require 
intensive direct instruction, interventions, more time on task, 
specialized materials reinforcing the need for teacher and 
administrator training, fully-funded mandates, and thorough 
understanding of how data transfers into instructional practice.
Assessment and Funding Impacts
    Finances at the local level are stretched as far as possible using 
creative, legal, funding combinations to fund needed formative 
assessments to follow student progress throughout the year rather than 
waiting for final API and AYP assessments at the end. This process 
enables strategic, direct instruction to occur as soon as a need is 
identified. Regular programming, staffing, interventions, tutoring, 
technology, after-school programs, additional sections, longer school 
days, teacher and administrator training all must be funded. The 
ability to establish these structures and the ability to continue them 
long enough to make a difference create huge impacts on district and 
school budgets.
    Unfunded or low-funded mandates must be addressed for school 
districts to be successful at the NCLB endeavor. Raise levels of Title 
I and NCLB funding to cover the costs that states and districts incur 
to carry out NCLB requirements, without reducing expenditures for other 
educational programs. As state and national data is reported, research 
and development of increasingly more effective accountability systems 
should be given a high funding priority.
    Incorporating new areas of targeted accountability and flexibility, 
while acknowledging progress, all offer the promise of an 
accountability system that will fairly and accurately reflect the 
performance of students, schools, and school districts. Most 
importantly, they offer the promise of improved academic performance to 
meet the global demands facing our students.
    Thank you for the opportunity to present our recommendations.
                                 ______
                                 
    Chairman Kildee. Ms. Schott.

           STATEMENT OF ELIZABETH SCHOTT, PRINCIPAL,
                   McDOWELL ELEMENTARY SCHOOL

    Ms. Schott. Good morning. Thank you, Chairman Kildee and 
Congresswoman Woolsey for giving me the opportunity to testify 
today about the accountability system of the No Child Left 
Behind Act, and how it might be improved in its 
reauthorization.
    As a third-year principal of McDowell Elementary School in 
Petaluma I hope to provide you with a representative view of 
NCLB's effect on schools like ours.
    McDowell Elementary School is home to 340 students in 
kindergarten through 6th grade. Roughly, 71 percent of our 
students are English learners, and 73 percent receive free or 
reduced price meals.
    Before McDowell entered program improvement year two in the 
fall of 2005, I regret to say that the soft bigotry of low 
expectations was our way of thinking. Being labeled PI Year 2 
was the kick in the shins our school needed to begin serious 
work on changing our practices in curriculum and instruction. 
Our staff realized that continuing to do things the same way, 
only harder, was not making our students successful.
    Upon being shown proof that schools with even more 
challenging populations than ours were bringing more than twice 
the number of students to proficiency than we were, our 
teachers said, if they can do it, so can we. So, we initiated a 
reform of our reading program in November, 2005, that mimics 
Reading First as closely as our site funding allows, since our 
district doesn't qualify for Reading First.
    Year two also mandated that we provide funding for 
supplemental educational services, a sanction that deserves 
serious reconsideration by the Committee. In our area, where 
public transportation is an issue, and personal cars and home 
computers are few, we have one SES provider within walking 
distance of the school.
    Their level of service is disappointing, but they are the 
only game in town. Their tutors are not trained in Reading 
First methodology, and so one would have to question their 
effectiveness at supplementing classroom instruction for our 
most impacted learners.
    Furthermore, the required 20 percent set aside from sites 
Title 1 budgets for SES has a negative impact school-wide. The 
$80,000 that we will have spent on SES before exiting PI could 
have been used to provide our school with a reading coach for a 
year, one of the most effective pieces of the Reading First 
model that we have not yet found a way to fund.
    Despite our initial efforts in '05-'06, we did not make AYP 
for certain subgroups in last spring's testing, and so we are 
in year three of program improvement. Our regional consultant 
allowed us to continue with the reforms we designed last year, 
but it will take three years before the fruits of our labor 
show up in the test results of this year's kindergarten class. 
Time, as you can see, is not on our side.
    If we fail to make AYP again, the district will have the 
right to replace all or most staff. In the case of Petaluma, a 
wholesale replacement of staff at our site would result in 
students being instructed by teachers who are actually less 
well trained than those already in place, due to our extensive 
Reading First-like professional development.
    Such an intervention by the district would ultimately be 
detrimental to our students, jeopardizing future gains in 
student achievement and dismantling a staff that now believes 
that kids can do it.
    An alternative would be an accountability structure that 
gives credit for the progress and changes being made at a 
school, with benchmarks that demand a set amount of growth each 
year, like California's API. Such a model would be a far-more 
motivational and statistically reasonable model than the 100 
percent proficiency target by 2014. This mathematically 
unattainable goal has undermined the credibility of NCLB's 
accountability system from the start.
    I agree that drawing a line in the sand is an effective way 
to begin a reform process. The first iteration of NCLB 
certainly has served its purpose of getting people's attention 
and mandating that they attend to the foremost goal of 
schooling, student learning. The required growth targets and 
time line need to be restructured, but not abandoned. Educators 
are only human after all, and we will back slide into old 
practices that are bad for students if the bottoms of our feet 
aren't kept a bit warm.
    One of the first parent letters I wrote as the new 
Principal of McDowell School in September, 2004, was the School 
Choice Letter. I found it deeply embarrassing to have to tell 
people that their child's school was inadequate, and that they 
had the right to go find a better education across the freeway.
    However, my personal shame was irrelevant in comparison to 
the far more somber story the scores told. We were failing to 
educate our students.
    I feel we have now effectively begun to sustain progress, 
but there looms an impending sense of doom at my school about 
not being able to turn the ship fast enough and travel far 
enough to outrun the final sanctions of PI 4 and 5. A more 
progressive, psychometrically reasonable growth-based model of 
accountability in the reauthorization of NCLB would go a long 
way toward guaranteeing that reform efforts at McDowell and 
schools like ours are sustained and energized long enough to 
sweep up all of our students into a wave of success.
    Thank you.
    [The statement of Ms. Schott follows:]

         Prepared Statement of Elizabeth W. Schott, Principal,
                       McDowell Elementary School

    Thank you Chairman Kildee, Representative Woolsey, and Members of 
the Subcommittee for the opportunity to testify today about the 
Accountability System of the No Child Left Behind Act and how it might 
be improved in its reauthorization.
    As a third year principal of McDowell Elementary School in 
Petaluma, California, about 30 miles north of here, I hope to provide 
you with a representative view of the No Child Left Behind Act's effect 
on schools like ours.
    McDowell Elementary School is home to 340 students; roughly 71% of 
our students are English Learners and 73% of our students receive free 
or reduced price meals. These percentages exceed the district's and 
county's levels by a minimum of 35-40%. A small number of schools in 
our county are in a demographically comparable situation, and one other 
elementary school in the Petaluma City School District has a similar 
profile to McDowell's. Most of these schools that are not in Petaluma, 
however, benefit from being in districts that qualify for Reading First 
funding, which is helping them make a real difference in their 
students' achievement. Petaluma City Schools does not qualify for a 
Reading First Grant due to its relatively isolated pockets of high risk 
students. McDowell and schools like ours, therefore, fall between the 
cracks in terms of being able to access resources available to more 
homogeneous districts.
    Before McDowell entered Program Improvement Year II in the fall of 
2005, I regret to say that the mindset of attributing our poor results 
to the test, and to the learner, and to the changing families, and to 
the fact that we have children just 12% of their time between 
Kindergarten and 12th grade, still had a stranglehold on the staff at 
McDowell. Sadly, I include myself in that category. What has been 
described as the ``soft bigotry of low expectations'' was our way of 
thinking, although I would characterize it more as a perpetuation of 
the ``self-esteem before anything else'' thinking of the 90s. We had a 
bunch of kids in our school who couldn't read proficiently, but they 
didn't necessarily feel bad about it, and that was what was important. 
There was also a measure of thinking ``this too shall pass'', whereby 
teachers felt they could just wait out NCLB, and continue doing what 
they'd always done which ``the test'' just wasn't capable of measuring 
the success of.
    Being labeled Program Improvement Year II was the slap in the face 
our school needed to begin serious work on changing our practices in 
curriculum and instruction. Our staff realized that continuing to do 
things the same way--only harder--was not making our students 
successful by a measure that, while still not embraced by all, clearly 
wasn't going anywhere. It was then, and still is, my philosophy that we 
cannot wait for people's minds to change when something as critical as 
student success is at stake. We must change behavior first and the 
subsequent increased successes will cause minds to follow.
    Foreseeing that Year III of Program Improvement was going to bring 
mandated changes in curriculum and instruction should we continue not 
to meet our targets, our staff decided to take control of the process 
of making those changes. Upon being shown proof that schools with even 
more challenging populations than ours were bringing more than twice 
the number of students to proficiency that we were, our teachers said, 
``If they can do it, so can we.'' So we initiated a reform of our 
reading program in November of 2005 that mimics Reading First as 
closely as our site funding (with district contributions) allows. With 
the help of a consultant who donated much of her time in that first 
year, we received training in research-based methods for delivering the 
adopted series, established an assessment calendar that tracked student 
progress at minimum three times per year, and began regrouping for 
reading instruction so as to better target instruction.
    We did not, however, make our AYP targets for certain subgroups in 
last Spring's testing, and so we are in Program Improvement Year III. 
When we met early this year with our external consultant from the 
county as required, we outlined the changes we made last year, and 
showed her the progress we were seeing on our assessments. We have been 
allowed to continue with the reforms as designed last year. This year's 
Kindergarten class will be the first to have received the direct, 
explicit instruction in the fundamentals of reading as outlined in the 
National Reading Panel's 2000 publication Teaching Children to Read, 
for an entire school year. Since second graders will no longer be 
tested after this year, it will be three years before the fruits of our 
labor will show up in this Kindergarten class's test results. In the 
meantime, we hold on to the fact that schools receiving Title I High 
Achieving Schools awards in our state who are in Reading First 
districts are predominantly in their third, fourth or fifth year of 
Reading First. We know that we must stay the course in order to realize 
lasting gains for our students.
    Time, however, is not on our side. We could have, and should have, 
taken the radical steps of last year at least two years sooner. But now 
we are up against it, probably making most of our AYP targets this 
year, thereby halting the decline into Year IV of Program Improvement. 
But we may fail to meet the 2008 target increase, and the district 
would have the right to:
    <bullet> Reopen the school as a charter
    <bullet> Replace all or most staff including the principal
    <bullet> Contract with an outside entity to manage the school
    <bullet> Recommend State takeover
    <bullet> Undertake any other major restructuring
    It is the second of these options that is the most disturbing, and 
one of the areas where the accountability structure of No Child Left 
Behind may have room for improvement.
    In the case of Petaluma, which I doubt is unique in California or 
the country, McDowell is the only school that has undertaken the 
training and instructional reform described earlier in this testimony. 
We are implementing research-based reading strategies that are known to 
be effective with students like ours, and we are seeing progress. No 
other school in the district has done anything like this. And, as 
Garden Grove Superintendent Laura Schwalm says, now ``* * * our 
teachers believe the kids can do it.'' If there were to be a wholesale 
replacement of staff and administration at our site, students would be 
being instructed by teachers who were actually less qualified, and less 
well trained, than those already in place. Additionally, the teachers 
at McDowell want to make this reform work for our students. They are 
deeply committed to turning the tide at our school, while other 
teachers throughout the district have no interest in teaching our 
students. Such an intervention by the district would be disastrous for 
our students.
    An accountability structure that takes into account the progress 
and changes being made at a school, with benchmarks that demand a set 
amount of growth each year, more like the Title III accountability 
model, would be far more motivational and statistically reasonable than 
the current absolutist scheme. The ``100% proficiency'' goal has 
undermined the credibility of NCLB's accountability system from the 
start. Starting from where you are and establishing growth targets that 
are psychometrically attainable and that end at a rational proficiency 
threshold is worth the committee's careful consideration.
    This factoring in of the time it takes to accomplish any major 
reform needs also to be applied to a school's English Learner 
population. The current accountability model in NCLB doesn't seem to 
take into account the research on the time it takes to learn a second 
language, particularly the academic vocabulary of that language. 
Schools with English Learner subgroups are being held to a double 
whammy of a standard due to the neighborhoods they serve. I'm not a 
lobbyist for Title III, but again, their level of accountability--the 
district--effectively neutralizes the location factor of a school and 
holds the district accountable for making sure all students in the 
district are learning. Best practices research tells us that reform at 
the school level is only partially effective, and that true change 
happens when there is articulation of curriculum, instruction, 
professional development and resource allocation originating at the 
district level.
    District level accountability for Special Education programs housed 
at individual schools would also be a more fair way to assess the 
effectiveness of such classes. We have a Special Day class at my 
school, which currently houses Kindergarten through second grade 
students. This year, I don't expect Students with Disabilities to even 
constitute a significant subgroup at my school. Last year, however, 
there was another Special Day Class at my site, one with third through 
sixth graders in it. Up until last year, districts were allowed to 
report site-based programs as ``district programs,'' aggregating 
accountability at the district level. Last year, however, the reporting 
rules changed, and individual sites were held accountable for their Day 
Class results, even if many of the students were not from one's own 
attendance area. This, and the school choice provision starting in Year 
I of Program Improvement, caused our district to move our intermediate 
Special Day Class to another site this year, one not in Program 
Improvement. This was a loss for our site in all ways not related to 
NCLB's accountability system. We lost valued staff and students who 
were part of our family. Children who had always walked to school were 
now having to ride a bus across town to a school their parents had no 
idea even how to get to.
    I understand that an extreme throwing down of the gauntlet is an 
effective way to begin a reform process. The first iteration of No 
Child Left Behind certainly has served its purpose of getting people's 
attention and mandating that they attend to the foremost goal of 
schooling--student learning. The variability in how states have 
operationalized ``proficiency'', however, needs to be addressed. It 
simply isn't fair for some states to call grade level proficiency 85% 
correct, and others to call it something less. Additionally, the 
required growth targets and timeline needs to be restructured--but not 
abandoned! People are only human after all, and we will backslide into 
old practices that are bad for students if the bottoms of our feet 
aren't kept a bit warm.
    Furthermore, while I am not an expert on the issues surrounding 
students with disabilities, there seems to be something mean about the 
current law's dismissal of many such students' learning challenges in 
its assumption that they can attain proficiency at the same rate and 
level as typically learning students. I try to imagine what that must 
feel like to students and parents, and it seems unempathic at best. 
Yes, all students must show progress, but in the case of students with 
disabilities, this progress is outlined in and guaranteed by the IEP 
process.
    This is but one example of where NCLB and IDEA clash to the 
detriment of students and schools. The other is in the arena of the 
modifications to the testing protocol written into students' IEPs. If 
those modifications are used during testing, the student isn't counted 
in one's participation rate, and is automatically given a performance 
rating of ``Far Below Basic.'' Allowing NCLB to supersede IDEA is 
confusing to families and punitive to schools.
    Another area that deserves serious reconsideration is Supplemental 
Educational Services. In our area, where several of the families have 
one car at the most, and parents aren't proficient English speakers, 
and home computers are the exception, we have one SES provider within 
walking distance of the school. Their level of service is 
disappointing, but they are the only game in town. Their tutors are not 
trained in Reading First methodology, and so one would have to question 
their effectiveness at supplementing classroom instruction for our 
struggling learners. The level of sophistication (and language) needed 
to access the online providers is beyond most parents, and my concern 
about our local provider is the same regarding the expertise of those 
on the other end of the modem.
    The funding we receive as a schoolwide program of Title I is 
clearly circumscribed and monitored by the state, as well it should be. 
But SES doesn't seem to be so scrupulously tracked. The set aside for 
this consequence of being in Program Improvement costs our school's 
Title I budget approximately $20,000 per year. At minimum, we will have 
to commit these dollars to an ineffective intervention for another two 
years. In total, that will represent nearly $80,000 that could have 
been used to provide our school with a Reading Coach, the one piece of 
the Reading First model we have not yet found a way to fund.
    In conclusion, I would like to talk about what motivates me as a 
principal to get out of Program Improvement, and to stop being affected 
by the consequence end of the NCLB accountability system. One of the 
first parent letters I wrote as the new principal of McDowell School in 
September of 2004 was the school choice letter. I found it deeply 
embarrassing to have to tell people that their child's school was 
inadequate, and that they had the right to go find a better education 
across the freeway. Paradoxically, since that time, our enrollment has 
increased steadily, with this year finding us the fastest growing 
school in the district. In certain populations, federal accountability 
measures aren't what matter most about their child's school. Apparently 
having a bilingual school secretary, many bilingual classified and 
certificated staff members, a free after school Boys & Girls club 
program (thanks to Prop 49), and being within walking distance of home 
all mitigate our poor showing on state testing.
    Nevertheless, beyond my personal shame at having to facilitate 
transfers and see our name in the newspaper as an underperforming 
school, the scores told a far more somber story: we were failing to 
educate our students. I feel we have now effectively stopped the 
hemorrhaging and are working diligently to sustain our progress. I find 
silver linings constantly to keep teachers motivated--pointing out that 
we moved from a Similar Schools ranking of one last year to two this 
year, for instance. There does loom, however, an impending sense of 
doom at my school about not being able to turn the ship fast enough, 
and travel far enough, to outrun the final sanctions of Program 
Improvement Years IV and V. A more progressive, psychometrically 
reasonable, growth-based model of accountability in the reauthorization 
of No Child Left Behind would go a long way toward guaranteeing that 
McDowell's reform efforts are sustained and energized long enough to 
sweep up all of our students into a wave of success.
                                 ______
                                 
    Chairman Kildee. Thank you very much.
    Mr. Gonzalez.

          STATEMENT OF PEPE GONZALEZ, VICE PRINCIPAL,
                VENETIA VALLEY ELEMENTARY SCHOOL

    Mr. Gonzalez. Thank you, Chairman Kildee and Congresswoman 
Woolsey, for the opportunity to speak here today. I was 
fortunate enough to get to walk here this morning from my 
school, which I'll be speaking specifically to, a few blocks 
down the road.
    Venetia Valley is a K-8 school that embodies a very diverse 
student population. We have enrollment of about 609 students, 
ranging from three areas here in San Rafael, Santa Venetia 
neighborhood, Los Ranchitos, and the canal areas, are all very 
close to the civic center.
    Students come to us with a variety of skills and come from 
very diverse homes. The demographic breakdown of our students 
is 60 percent Hispanic, 4 percent Asian, 6 percent African 
American, 2 percent Filipino and 27 percent White. We are very, 
very diverse, and representative of the State of California.
    Of these students, 44 percent of them are English language 
learners, and 21 percent of these students have been 
reclassified as fully English proficient.
    Our average parent education level is a 2.6, a 1 meaning 
that the parents had not finished high school, and a 5 with 
having some post graduate education. So, we have a very 
changing, trending change in population that we've had to face.
    Over these past five years, the following demographic 
trends have emerged--the percentage of Hispanic students has 
increased from 38 to 60 percent. The percentage of students who 
qualify for free or reduced lunches also increased from 33 to 
52 percent. 7 percent of our students have moved outside the 
City of San Rafael to other more affordable neighborhoods, a 
number that has doubled in the past five years.
    Along with these demographic trends, we have been tracking 
student progress. In the past two years, our API has increased 
by 54 points overall, currently placing us at 6 in the overall 
school ranking.
    The past two years we have met our adequate yearly progress 
goals, as 42 percent of our students are at or above the 
proficient level in English Language Arts, and 53 percent of 
our students are proficient or above in level of mathematics.
    Venetia Valley is the only school in Marin County to run a 
dual merge bi-literacy program, and only one of hundreds in the 
entire country. The program was being funded by Federal Title 7 
money that was overriding the state proposition. Our parents 
were asked to sign a waiver in order to be taught bilingually 
in both English and Spanish, and they currently have to 
continue to do that.
    Our program is offered to two of the four classes, 
kindergarten to 3rd grades, we have roughly about 40 students 
per grade level K-3, and about 28 students in the 4th and 5th 
grades that continue into the program. Our school is K-8, 
however, in the middle school grades we go to a middle school 
model, where Spanish is offered as an elective and not as part 
of the curriculum.
    In our K-5 model, literacy in all language arts are taught 
strictly in English. Thematic kits in science, social studies 
and the arts are done in Spanish, as mathematics is the only 
constant curriculum that's taught every other day in Spanish 
and English.
    Our teachers come from very, very diverse backgrounds. Some 
have Latin American Native Spanish speaking languages, and 
others are non-native that have acquired Spanish as their 
second language.
    As our demographics have changed, it has become more 
difficult to have a balance of native and non-native Spanish 
speakers in our classrooms.
    Some of the things that we've been able to do here, and had 
to adjust to in the past for No Child Left Behind is, we have 
to meet these expectations for our district adopted a mandated 
reading program in 2002. Teachers were trained and expected to 
meet these district pacing guides for every class in the 
district, and every grade level, was on specific pacing guides. 
We had to hire a district literacy coach and a site literacy 
coach, which monitors and trains teachers and guides them 
through the new program.
    Routine assessments are now done quarterly. We have--
comprehension scores to meet these individual needs. It's 
become more work, but we have the resources available to do 
that, which has been a great success for us.
    After school programs have become an extremely important 
part of our system. We have community partnerships that allow 
us and help us fund these programs to give these students that 
need it that extra support. Our after school program has two 
components, a literacy and mathematics enrichment program, as 
well as a homework support part.
    Computer programs were implemented and are part of the 
program to give struggling readers support outside of the 
structured classroom.
    The after school program has a strict entrance policy, 
beginning with the teacher nomination, for we only allow 
students that are truly far below basic or in the basic range 
to enter. They have to get a permission slip, and then there's 
a signing of a contract, for if a student fails to attend the 
program for three days there is a waiting list that we activate 
quickly, and there's a high turnaround rate in that program.
    The program coordinator works very closely with 
administrators and other teachers to continually meet the 
teachers' needs and the children's needs.
    Venetia Valley offers an after school program to all its 
students, kindergarten through 8th grade.
    We continue to strive to increase the level of parent 
involvement, which is something that we've really, really 
pushed in the past few years. We have a great partnership with 
parent service projects here locally in Marin, and the 
increase--we are trying to increase the number of Latino 
parents to attend meetings, extra curricular activities, and 
all around general participation in our classrooms.
    Parent universities are held monthly to teach parents how 
to better serve their student's needs. Classes range from how 
to help children on homework to how to read the report card. 
Parents gain an understanding of how to be better parents, and 
just an overall sense of the education system.
    The increase of parent knowledge is something to ultimately 
benefit the children and what they gain from the school.
    Thank you very much for this opportunity.
    [The statement of Mr. Gonzalez follows:]

          Prepared Statement of Pepe Gonzalez, Vice Principal,
                       Venetia Valley K-8 School

    Thank you, Chairman Kildee, Congresswoman Woolsey, and Members of 
the Subcommittee for this opportunity to testify. I am Pepe Gonzalez, 
Vice Principal of Venetia Valley Elementary School in San Rafael.
I. School Background
    Venetia Valley, a K-8 School, embodies a diverse population with an 
enrollment of 609 students. Students attending Venetia Valley School 
come from three major communities within San Rafael: Los Ranchitos, 
Santa Venetia which are areas that are in the northeast corner of the 
city near the Marin County Civic Center. Students come with a variety 
of skills and from very diverse homes. The demographic break down of 
our 609 students is as follows: 60% Hispanic, 4% Asian, 6% African 
American and 2% Filipino and 27% white. Of these students 44% are 
English Language Learners and 21% of the students have been 
Reclassified as Fully English Proficient. Our average parent education 
level is 2.6 (1 meaning that parents had not finished high school, 5 
having a post graduate education)
    Over the past 5 years, the following demographic trends have 
emerged: the percentage of Hispanic students has increased from 38% to 
60% and the percentage of students who qualify for free and reduced 
lunch has increased from 33% to 52%. Seven percent of our students have 
moved outside the city of San Rafael, a number that has doubled in the 
past five years. Along with these demographic trends, we have been 
tracking student progress. In the past 2 years our API has increased by 
54 points overall, currently placing us at a 6 in overall school 
ranking. The past two years we have met our Yearly Adequate Progress 
Goals as 42% of or students are at or above the proficient level in 
English Language Arts while 53% of our students are at or above the 
proficient level in Math.
    Venetia Valley is the only school in Marin County to run a dual 
immersion billiteracy program, and only one of hundreds in the country. 
The program was being funded by Federal Title VII money that over rides 
the state mandated proposition. Parents are required to sign a waiver 
allowing their children to be taught in both English and Spanish. Our 
Biliteracy program is offered to two out of the four K-3 classes, 
roughly 40 students per grade level. In the fourth and fifth grades the 
program condenses down to one class of roughly 28 students.
    Literacy and all Language Arts are taught strictly in English. 
Thematic units in Science, Social Studies or the Arts are done in 
Spanish as Mathematics is taught every other day in Spanish. Our 
teachers vary, coming both from various Latin American countries having 
Spanish as their native tongue while some have acquired Spanish as 
their second language. As our demographics have changed it has become 
more difficult to balance the number of native Spanish speakers with 
non-native Spanish speakers in the biliteracy program.
II. Best Practices
    Venetia Valley has had to adjust and modify teaching practices in 
order to continually meet NCLB growth expectations. The District 
adopted a mandated reading program starting in the 2002-2003 school 
year. Teachers were trained and expected to meet district pacing guides 
to be consistent for all grade levels throughout the district. School 
sites created literacy coach positions that mentored teachers and 
guided them through the new program adoption. Routine assessments 
became implemented to obtain quarterly lexile and literacy scores to 
better meet individual students' needs.
    After school programs were created with community partnerships to 
give students who are not proficient or advanced extra support. The 
after school program has two components, literacy and mathematics 
enrichment and homework support. Computer programs were implemented and 
are part of the program to give struggling readers support outside of 
the structured classroom environment. The after school program has a 
strict entrance policy, beginning with teacher nomination, parent 
permission and the signing of a contract. If a student fails to attend 
the program more than three days students from the waiting list will be 
activated. The program coordinator works very closely with the 
administrators and teachers to continually meet the children's' needs. 
Venetia Valley offers after school programs for Kindergarten through 
eighth grade students.
    Venetia Valley is striving to increase the level of parent 
involvement and general school knowledge. Through a partnership with 
Parent Service Project our goal is to increase the number of Latino 
parents who attend meetings, extracurricular activities and over all 
participation in the classroom. Parent universities are held monthly to 
teach parents how to better serve their students needs. Classes range 
from how to help children with homework to reading report cards. 
Parents gain an understanding how to be better parents. The increase of 
parent knowledge ultimately benefits the children and what they gain 
from school.
III. Measures of Success
    Though our demographics have changed over the years we have met our 
expected API goals. Being a K-8 school makes us very unique and allows 
us to see our kids grow throughout their elementary experience. We are 
able to foster a high level of community as families often have 
multiple children in our school ranging in various age levels. Parents 
respect the security of our school and its programs.
    Venetia Valley prides itself in being diverse while still 
maintaining high academic expectations. We team with several community 
organizations that bring in outside programs to better round our 
students education. Art, drama, physical education and music programs 
balance out the academics.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Mr. Gonzalez.
    Ms. Blake.

              STATEMENT OF MELANIE BLAKE, TEACHER,
                   SONOMA VALLEY HIGH SCHOOL

    Ms. Blake. Thank you, Chairman Kildee, Congresswoman 
Woolsey. I am pleased to have been invited today to testify on 
improving the No Child Left Behind Act's accountability system.
    I am Melanie Blake, and I am a teacher at Sonoma Valley 
High School. I come here today on behalf of the 340,000 members 
of the California Teachers Association, to share my experience 
and observations as a teacher, which reflect what is happening 
with many of my colleagues as well.
    Sonoma Valley High, and all of our neighborhood schools, 
are an integral part of a small world community in Sonoma 
County. If you walk through our town you would see the last 
mission built in California, small shops situated on a quaint 
plaza, nestled in rolling hills, and surrounded by vineyards.
    What you would not guess if you visited our community is 
that we are also a school district which has been designated 
for program improvement, a failing district under the No Child 
Left Behind Act.
    Two of our elementary schools and both of our middle 
schools are designated as program improvement. Sonoma Valley 
High was a PI school just one year ago, although we were able 
to exit program improvement status this year. So, I feel 
qualified to speak to you today about what NCLB means to the 
field experts, the teachers, principal, and staff who work with 
students every day.
    First, I want to assure you that I, along with my teaching 
colleagues recognize that accountability is a necessary 
component of our school systems, and it is fitting that this is 
the focus of this hearing today. NCLB has been a driving force 
for schools to take a deep look at our students, and focus on 
students by subgroup.
    We recognize that there is an achievement gap, especially 
for students with disabilities, English language learners, and 
economically disadvantaged students. We embrace the opportunity 
to work to close that achievement gap, and we consider that our 
task and our responsibility as educators.
    Unfortunately, accountability under NCLB has been reduced 
to a matter of test scores and little else. I've seen the 
consequences of an unfair testing system on English language 
learners. In our schools, we have students from other countries 
who arrive every year with their families to work in the 
vineyards and in our tourist industry. In a sense, these 
students have twice as much to learn. They must master core 
academics and English.
    Our EL students need time to acquire academic proficiency 
in English, requiring an absolute performance measure does not 
recognize these students' ongoing achievements. It punishes the 
students and the schools for, in essence, not learning fast 
enough. I've seen the discouraged students and, unfortunately, 
it happens at all grade levels.
    The current assessment model also inadvertently penalizes 
our students in other ways. In Sonoma, we have an active and 
generous community, supplementing our core curriculum with arts 
programs, community involvement opportunities, career 
preparation, and more. But, children with low test scores 
cannot access this rigorous and enriching curriculum, because 
they are tethered with additional language and math classes. 
This punishes students who are deemed low performing by this 
one single measure. They are the ones most in need of these job 
skills and relevant curriculum to keep them connected to 
schools. So, the very students we seek to support are the ones 
who are disenfranchised by this one-test-fits-all model of 
assessment.
    I know my students would be better served with a multiple 
measures type of assessment, that recognizes their ongoing 
improvement. Our state's accountability measure, the Academics 
Performance Index, or API, is designed as an improvement model 
that sets targets for students and subgroups of students to 
meet achievement goals and move them closer to proficiency.
    At the same time, California's system recognizes the 
advances made by students in schools, and it contains 
provisions for intervention for schools that repeatedly fail to 
make these targets.
    I urge you, on behalf of students, parents, CTA, to allow 
states the flexibility to decide the type of accountability 
model that best fits their particular needs. The achievement 
gap can continue to be a focus with this model through analysis 
of subgroup data.
    I know, as do many practitioners, through the current 
research and our own daily experiences, that NCLB is not 
narrowing the achievement gap. I know accountability further 
disadvantages the English learners when the system depends on 
an over reliance on sanctions other than support. We have many, 
many examples of that in our valley.
    Teachers welcome accountability when it means that students 
can feel welcomed into our schools knowing they have a chance 
to succeed and are not destined to fail.
    The reauthorization of NCLB gives Congress the opportunity 
to build an educational accountability system that encourages 
students and teachers to reach their highest potential.
    I hope you will work with us, the field experts, to build 
an accurate and fair accountability system for our students.
    Thank you for the opportunity to speak with you today.
    Chairman Kildee. Thank you very much.
    [The statement of Ms. Blake follows:]

Prepared Statement of Melanie Blake, Teacher, Sonoma Valley High School

    Chairman Kildee and distinguished members of the Subcommittee on 
Early Childhood, Elementary and Secondary Education, I am pleased to 
have been invited today to testify on ``Improving the No Child Left 
Behind Act's Accountability System''. My name is Melanie Blake and I am 
a teacher at Sonoma Valley High School, located about 30 miles north of 
where we sit today. I have been a public school teacher for over twenty 
years. I hold a master's degree in educational leadership with an 
emphasis in assessment. I have several teaching credentials and have 
worked with students of all ages, from elementary school through 
college. I have taught developmentally challenged students, high 
achieving students, native speakers and English Language Learners. I 
currently teach seniors English, civics and economics. I come here 
today on behalf of the 340,000 members of the California Teachers 
Association, all of whom have been affected by the No Child Left Behind 
Act.
    Sonoma Valley High School is a wonderful place to work, with a 
group of dedicated teachers, supportive administrators, and involved 
parents. We are part of a district that also includes 5 elementary 
schools and 2 middle schools that feed into our high school, as well as 
two alternative education schools and two K-8 charter schools. Our 
schools are an integral part of a larger community that is a rural/
suburban mix in the southeast corner of Sonoma County. If you walked 
through our community, you would see the last mission built in 
California, small shops and a traditional movie house all situated on a 
quaint plaza, complete with playgrounds and picnic area, nestled in the 
rolling hills and surrounded by vineyards. What many people would not 
guess if they visited our community is that we are also a school 
district which has been identified for Program Improvement--in other 
words, a failing district under the No Child Left Behind Act. Two of 
our elementary schools and both of our middle schools are designated as 
Program Improvement Schools and my own school, Sonoma Valley High 
School, was a PI school just one year ago. The high school was able to 
exit Program Improvement status this year, but as the level of expected 
proficiency sharply increases over the next few years, we may become 
labeled a failing school again. So I feel qualified to speak to you 
today about what NCLB means to the ``field experts'' in our educational 
system, the teachers, principals, paraprofessionals and support staff 
who practice our craft in schools--with students--every day of the 
year.
    First, it is essential that we all recognize that accountability is 
a necessary component of our school systems, both statewide and 
nationally, and it is fitting that you make that the focus of your 
hearing today. NCLB has been a driving force for all schools to take a 
deep look at our students, and in particular, to focus on students by 
subgroup. We recognize that there is an achievement gap, especially for 
students with disabilities, English learners, and economically 
disadvantaged students. And I, along with my teaching colleagues, 
embrace the opportunity to work to close that achievement gap. That is 
why California instituted the Public Schools Accountability Act (PSAA) 
in 1999, well before the reauthorization of the federal Elementary and 
Secondary Education Act in 2001. Unfortunately, accountability under 
NCLB has been reduced to a matter of test scores and little else.
    Currently, a one-time high stakes test often determines whether a 
school is considered to be making Annual Yearly Progress (AYP) and is 
succeeding under NCLB, or whether it is a school in need of improvement 
and therefore faces sanctions. This snapshot approach is an unfair and 
misleading measure of student achievement and fails to discriminate 
between schools that are truly in need of intensive and sustained 
intervention and those that may have missed the expected proficiency 
level by just a small amount.
    This one shot assessment model is especially problematic for our 
English Language Learners and the schools and teachers that serve them. 
Students arrive every year from other countries. This is especially 
true in communities like ours, which has a large population of 
agricultural workers who work in the vineyards. These students must 
learn two curriculums: core academics and English. They need time to 
acquire academic proficiency in English. Requiring an absolute 
performance measure does not recognize these students' achievement. It 
punishes the students and the schools for, in essence, not learning 
fast enough. This discourages learners and robs them of access to the 
same curriculum as their peers.
    The current assessment model also fails to reward and recognize 
schools that offer students a rich and rigorous curriculum, that build 
students' higher order thinking skills and dispositions of inquiry so 
valuable to future employers, and that offer opportunities to engage 
students in community service. Each of those avenues supports the 
learning and development of children and youth and all are being 
decimated by the over-emphasis on test preparation and test scores.
    Moreover, our current measure of AYP does not even recognize the 
growth in student achievement as measured by test scores that IS 
occurring every day in schools. Many students are moving from far below 
basic to below basic, or below basic to basic levels of proficiency. 
Yet only those students who achieve a level of proficiency or above are 
recognized as making progress. California's Education Coalition, of 
which CTA is a member along with the PTA, the California Schools Boards 
Association, the Association of California School Administrators and 
many others, are united in advocating that academic growth among all 
segments of the school population should be acknowledged as making 
progress.
    Our state's accountability measure, the Academic Performance Index 
(API), is designed as an improvement model that sets targets for all 
students, and all subgroups of students, to meet achievement goals that 
move them closer to proficiency. At the same time, California's system 
recognizes the advances made by students and schools and contains 
provisions for intervention for schools that repeatedly fail to make 
those targets. CTA urges Congress to allow states to decide the type of 
accountability model that best fits their needs and context, while 
maintaining the requirement in federal law that such systems analyze 
student achievement data by subgroup, so that the achievement gap 
remains a focus of attention.
    We know, through the current research and through our own daily 
experiences in schools, that NCLB is not narrowing the achievement gap. 
We know that the current accountability system further disadvantages 
minority and poor students with its over-reliance on sanctions rather 
than support and assistance to schools and students that need it. We 
know that unless schools are funded at a level that makes proven 
reforms such as class size reduction and sustained teacher 
collaboration time feasible, the achievement gap will continue.
    Teachers welcome accountability when it means that students can 
feel welcomed into schools, knowing that they have a chance to succeed 
there, not that they are destined to fail. The reauthorization of NCLB 
gives Congress the opportunity to build an educational accountability 
system that encourages students and teachers to reach their highest 
potential; I hope that you have the courage and wisdom to do so.
    Thank you for the opportunity to speak with you today.
                                 ______
                                 
    Chairman Kildee. Before we begin the questions, Lynn and I 
would like to remind you that there is coffee in the corner, so 
if you want to replenish, audience or the witnesses, please do, 
we are somewhat informal here.
    But, I really appreciate very much your testimony. I'd like 
to ask you a question, and we'll see how long it will take to 
respond, and Lynn, you might yield to me a bit, and I'll yield 
to you a bit when it's time.
    Ms. Woolsey. Fine, yes.
    Chairman Kildee. We talk about AYP, Adequate Yearly 
Progress, and growth models. Is that and/or, can we have a 
combination, or is there some blend of the two? Let's just 
start down here, if you have any comment, start with Dr. 
Tempes.
    Mr. Tempes. Yes, I think the notion of a growth model and 
the notion of a status model, where you have to jump over the 
bar, might be blended, and I think my colleagues here have all 
talked about API as a good model for doing that.
    My point is reasonableness. You can have a growth model 
that has unreasonable expectations as well. So, I think that 
the flexibility that we are asking for in California doesn't 
preclude other states from saying we want to use a status 
model, and I think the Department of Education is moving in 
that direction, but the opportunity that was presented to us we 
thought to have a growth model was kind of pulled out from 
under us with some technicalities.
    So, I think you can have either/or, really, but you ought 
to allow either/or.
    Chairman Kildee. Dr. Liddell?
    Ms. Liddell. I do think that there is room for both. I 
think that the growth model does give us the feeling of 
accomplishment and being able to meet targets and to meet 
student needs.
    Having a target, like the AYP, is useful, and my suggestion 
would be that we have a team of statistical analysts take as 
look at how that could be blended, or how the specific question 
and data that we want to focus on, to know whether our children 
are moving toward success and proficiency, and whether or not 
we are closing the achievement gap. That takes more than just 
one person's perspective, it takes a lot of people sitting 
around the table analyzing the system.
    Chairman Kildee. Ms. Schott?
    Ms. Schott. Follow the status, is that what you are saying? 
I think the problem with that model is that if you set a bar 
you say, okay, we'd like 67 percent of our kids at proficient, 
and we'll be happy with that. I don't know how you go tell the 
33 percent's parents that we've decided that they aren't the 
ones we need to bring to proficiency.
    So, I think the growth model is possibly the humane model, 
and you could just call it Adequate Yearly Progress, it's a 
name, you just change that to that's what your Adequate Yearly 
Progress is, is your 5 percent between--there is a target in 
California, the 800 on the API is the target, and you are 
expected to make 5 percent of the difference between where you 
are now and 800 every year.
    I guess that is a blend then, isn't it? There's a blend 
already in place.
    Chairman Kildee. Mr. Gonzalez?
    Mr. Gonzalez. I also agree that we need to have goals and 
targets that we need to attain. However, Dr. Tempes spoke to 
the reasonableness of these goals, specifically, with the ELL 
population, English language learning population, special ed 
and the lower income students. And, whatever that model is, we 
just have to be very, very careful when we set standards and 
goals for these students, and that's, in my opinion, the 
demographic change that has really affected us.
    So, I think the model is necessary.
    Chairman Kildee. Ms. Blake?
    Ms. Blake. Thank you.
    In Sonoma Valley, we have a school that's now in year five 
program improvement. They have 68 percent low socioeconomic 
students and rising, 62 percent EL learners and rising,
    What we need is an accountability model that allows for 
accountability for student growth in those areas. Special 
education children, I've worked with them every day for ten 
years, and ELL students, they are not necessarily in our 
current model by AYP by 2013, we are not going to have 100 
percent of those students making proficiency every year in the 
test, because we have new children coming into the system every 
year, especially in California, where we have non-English 
speaking students arriving all year, every year.
    And so, a model that recognizes student growth in 
achievement, as they move toward proficiency, is a model that's 
going to allow us to make those goals, and help students to 
really be successful.
    Chairman Kildee. Generally, a growth model is based upon 
the individual, how that individual is growing. So, you need a 
data system to follow the individual.
    AYP, generally, is the 3rd grade at X school this year, and 
the 3rd grade, who are different people, the following year, 
and it did not meet the Adequate Yearly Progress. Is there some 
way we can fuse the two where we are determining that that 3rd 
grade is making progress, and at the same time the individual 
is making progress?
    Yes.
    Ms. Liddell. In our district, we have--we started with the 
Reading First model in 2003, and we did the same thing some of 
my colleagues did in placing it even in schools that didn't 
qualify for it. We were able to fund it into those schools with 
the coaches and the training for all the administrators and 
teachers.
    And then, we've replicated that for students that are 
under-performing students in the secondary level. That model 
works very well, but the key piece to it is that data points 
are selected, such as reading fluency, comprehension, 
vocabulary, and data is collected on that on a regular basis, 
and put into what we call OAR system, Online Assessment 
Reporting system.
    The teachers can push a button as soon as the information 
is in and get a report back on an individual student, on their 
class, on the school, on the district. We are able to monitor 
students as they move along all through the year, and that's 
what gets us finally to the NCLB goal. We have to know all 
along the way if we are reaching those students.
    So, you are exactly right, we do need to know how we can 
address student needs individually or we can't move them. We 
have reduced the achievement gap in our special education 
group, and in our English language learner groups by about 35 
points, and this is the method that we've used. It's very 
important to address the individual student.
    Chairman Kildee. Thank you.
    Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Well, we hear about API working, but my concern with API 
versus No Child Left Behind, believe me, I don't think No Child 
Left Behind and AYP is the total answer, but API stops working 
for me when students that are English learners, come from 
economically disadvantaged families, have a year's growth in a 
year, but never catch up.
    So, I think the major thing that's wrong with No Child Left 
Behind, and measuring AYP, is where is the support for the 
school and the districts and the students that need more help 
every year to catch up.
    Now, and then I want to make a side thing. I believe, and I 
want you to respond on this, that special ed kids that are 
cognitively unable to catch up forever, I believe that, and 
tell me if I'm wrong, that their IEP----
    Ms. Liddell. IEPs.
    Ms. Woolsey [continuing]. IEPs measure annual yearly 
growth, and that we should make sure that happens, that each 
one of these kids then annually grows as best they can, and all 
the way through their schooling.
    And so, how do we make sure that we don't leave the kids, 
English learners and--not just measuring, of course we should 
keep those kids, the English learners, in the mix forever so 
that we can show.
    I want all of you to answer, if you will.
    Mr. Tempes. Right, let me just briefly, because there's a 
word you need to keep in mind.
    Ms. Woolsey. Okay.
    Mr. Tempes. And, that word is nuanced. What we have now is 
an accountability system that is kind of a sledge hammer 
approach, all kids will hit this goal by this year.
    Special education, the accountability measures for special 
education, students receiving special education, needs to be 
nuanced. Some kids should be held accountable for meeting those 
standards in the same time period as everybody else. Some kids 
should have an alternate assessment system, and be held 
accountable for those measures.
    You go down to Mr. Gonzalez's school, children who are 
learning English should be held accountable for learning 
English at a proper rate. Those students should not be held in 
the same time period for hitting the academic measures until 
they are ready to be tested.
    So, you need to nuance the approach to recognize these kids 
are different, that's why they are called, the services are 
called special education, that's why we have English learners. 
We have schools that also need a nuanced approach. We have 
schools that are designed not to keep students all year long, 
and they are being held accountable as if the students were 
there all year long. The goal for them still is to get them 
back into the regular school.
    So, a more nuanced approach to the accountability I think 
would meet some of the concerns you are talking about.
    Ms. Woolsey. But, that nuance will get them there 
eventually.
    Mr. Tempes. Correct.
    Ms. Woolsey. I mean, there's an end.
    Mr. Tempes. Well, that's the hard part.
    Ms. Woolsey [continuing]. 12th grade you are out.
    Mr. Tempes. That's the hard part, is people say, well, you 
are not going to hold yourself accountable for English learners 
or special education students, I think that everybody here 
would reject that.
    We want to be held accountable for all students 
appropriately.
    Ms. Woolsey. So, Mr. Gonzalez, and then you too, Dr. 
Liddell, tell me what other support systems are needed to make 
that possible, besides punishing your schools and sending your 
kids away.
    Ms. Liddell. Very often, these IEPs that you mentioned are 
in conflict with IDEA, and so there does need to be a nuance in 
that, maybe flexible assessments for students at certain 
levels.
    We do have a systems approach that works, where you do 
similar replication of a model, like we talked about, and there 
are some specialized programs out there that address the 
language abilities of students, no matter whether it's English 
language learners, or special education learners, or low 
socioeconomic learners, because their characteristics actually 
resemble each other. They have low vocabulary. Their fluency is 
not good. They may not have reading background from their home, 
all kinds of characteristics that are very, very similar.
    There are models out there now that we know of that work 
very well in a two to three year period, to bring all of those 
students up into a proficient model of use of English, whether 
it's reading, writing, and that type of thing, and those kinds 
of models need to be shown to all of the schools that need to 
have that, and use a systems approach to make this happen for 
the students, and watch them with the OARs data.
    Ms. Schott. I think that Reading First has been fairly 
successful for schools that have been with it for four or five 
years. We are seeing in California that the Title 1 high 
achieving schools that are receiving the awards from the State 
Department are coming from districts that have been with 
Reading First for four or five years, primarily, large groups 
of them.
    what would help my school would be being able to getting a 
Reading First grant, but because it's a district level of 
eligibility, and I'm----
    Ms. Woolsey. Well, tell me why McDowell isn't eligible? I 
didn't understand that.
    Ms. Schott. Okay. Reading First grants are given to 
districts, and districts have to have 40 percent of their 3rd 
graders not performing at proficiency. And so, in a variable 
district like ours, Petaluma will probably, in this lifetime 
events, they'll be never qualified, as a district, we'll never 
qualify for a Reading First grant.
    And so----
    Ms. Woolsey. So, your school is punished because the 
district as a whole is successful.
    Ms. Schott. Yes, it's a neighborhood kind of thing.
    Ms. Woolsey. Okay, thank you.
    Mr. Gonzalez. You spoke of the IEP, and we pass students, 
if a student has an IEP, and is in special education, they are 
passed on to the following grade based on their individual 
education plan goals that they have met.
    So, their grade level goals are different than their IEP 
goals, and they will pass on to the next grade level if they've 
met those goals.
    So, though a student may not be passing classes at the same 
level as a regular education student, if their goals are met 
they are passed on, and that's where we see the discrepancy or 
the nuances in the law.
    Ms. Woolsey. So then, are you, is that held against your 
AYP score?
    Mr. Gonzalez. If a student is supposed to go from 7th to 
8th grade, does not have the grades to go, if you basing them 
strictly on grades, and they are not going to pass 7th grade, 
but they've met their IEP goals, they are now 8th graders, and 
they have to take the 8th grade test, though they have not met 
the district and the state standards.
    Ms. Woolsey. And, that's different from a student who comes 
in not knowing English, and needs to have the catch up to get 
there, or a student that didn't have books in their house, and 
they are finally gobbling it up, but it takes time.
    Mr. Gonzalez. And, one other component to that is, if a new 
student arrives to us in 3rd grade, with no previous education, 
well, they are in 3rd grade so they are asked to take the 3rd 
or the 4th grade test, though they haven't had the previous 
education of kinder, 1st and 2nd.
    Ms. Schott. Did you want to say something?
    Ms. Blake. Yes.
    Ms. Schott. Go ahead.
    Ms. Blake. What teachers are seeing when it comes to 
testing is that over the last six years or we've started to see 
what we are calling a culture of testing. And, teachers need to 
have the flexibility to really be able to look at the data, see 
where students are currently functioning, and move them 
forward, and so it's very discouraging for a school like Sonoma 
Valley High, where we are put into program improvement, not 
based on student accomplishments, but because one subgroup of 
students failed to meet the 95 percent threshold for 
attendance.
    And, in a district where you have migrant ed children, and 
you have children moving in and out of the district, it's very 
frustrating and discouraging to have your school labeled as a 
failing school for some very small sort of obscure component 
that really did not have a lot to do with student performance.
    So, two things, the idea of formative assessment that gives 
the students and the teachers in the classroom some power over 
student progress, so we can say to that student, yes, you may 
not have reached this level, but you went from basic to 
proficient, or you went from below basic to basic, and that 
matters, because right now unless a student reaches proficiency 
each year they are tested that other growth doesn't seem to 
matter.
    And so, that's why the formative mixed in with these 
ultimate goals is important to teachers.
    Ms. Woolsey. Thank you, Mr. Chairman.
    I have more questions when you are through.
    Chairman Kildee. I'll take some, and then it's your 
district, so you can.
    Let me ask this. You know, California, Massachusetts, 
Michigan, set high standards for a child, and from rigorous 
tests. Other states, I won't name them, I'll get in trouble 
with some of my colleagues, but you probably know who they are, 
have standards that are rather low, and, therefore, it's easier 
to show good results on testing.
    Yet, Congress felt very cautious about trying to move into 
national standards and national testing, because, we believe 
that education is a local function, it's a state 
responsibility, and it's a Federal concern, and it's a Federal 
concern for two reasons. We live in a mobile society. A person 
educated in Mississippi may wind up in California, and vice 
versa. And we are competing in a global economy. Education 
gives us the cutting edge in that.
    But, it's a local function, state responsibility and a 
Federal concern, so we were very, more than reluctant, and 
chose not to have national standards and national tests.
    Could we, however, and we do it somewhat, could we expand 
somewhat, at least some statistical sampling, and take the NAEP 
test and do some sampling of states, maybe not individual 
students of states, and see how their standards and testing are 
measuring up to, say, the NAEP.
    I'd like to have all of you comment on that, if you could.
    Mr. Tempes. Yes, that's interesting, I have that down on my 
list of accountability topics to raise today, because we hold 
schools accountable, we hold districts accountable, we ought to 
hold states accountable at some level as well. And, I think the 
way that you've just outlined, Chairman, Kildee, of comparing 
California's AYP achievement with the NAEP achievement, and 
granted there will be a gap that can be attributed to 
difference in standards, but you know that in some cases that 
gap is too wide to be attributed just to standards, it's a 
lower standard.
    And, I think you ought to consider holding states 
accountable for reasonable standards. I don't know what the 
consequence, but NCLB is based on standards and consequences. 
So, I would endorse that notion of using NAEP to measure the 
rigor of state accountability systems. If it's too far, too 
much discrepancy, then there ought to be some consequence.
    Chairman Kildee. Doctor?
    Ms. Liddell. I would agree with my colleague. I believe 
that there does need to be consistency in standards and 
consistency in benchmarks, in order for us to all be compared, 
and NAEP would be a good way to do it, or some other format in 
which the standards are examined. They don't have to be exactly 
the same, but so that the rigor is measured, and it is an 
accountability program that is consistent across the country, 
for what we want students to know.
    Chairman Kildee. Okay. Ms. Schott?
    Ms. Schott. I don't have anything to comment.
    Ms. Blake. Mr. Gonzalez?
    Mr. Gonzalez. I would agree, the national system as well. 
However, states like California, Arizona, Texas, New York, that 
have high language learning populations would have to be 
addressed just like each school site would be, and as well with 
teaching standards for teachers and the credentialing issues. I 
know that we've had teachers come from different states, and 
they have through the hoops in each state. So, I think that 
would be a great thing to have nationalized as well.
    Chairman Kildee. Ms. Blake?
    Ms. Blake. In the Chronicle yesterday a couple of studies 
were released, one talking about how in Marin County the 1999 
Teacher of the Year left the teaching profession because there 
were too many obstacles, too many pressures, too much work in 
the weekends, too much work in the summer. We cannot continue 
to have this schizophrenic approach to testing and assessment 
of children in our classroom. We need an accountability system 
that allows teachers to look at their students and expect 
reasonable growth and reasonable expectations toward an 
ultimate goal of proficiency.
    If we want to have a state standard for proficiency, or a 
national standard for proficiency, that's okay, but teachers 
need to know that the accountability system in the classroom is 
going to be supporting student learning, supporting a rich and 
rigorous curriculum, and it's going to do it in a way that 
allows us to measure real growth and real learning for those 
students.
    Otherwise, it's just another target that doesn't mean much 
to the children in the classroom.
    Chairman Kildee. Thank you very much.
    Let me ask this question and I'll yield to Congresswoman 
Woolsey.
    Right now if you miss AYP by that much, or by a country 
mile, in the third year you get school choice as the effect, 
right, and then the fourth year you get supplemental education 
services.
    Could we write the bill where if you just barely miss AYP 
there's some effect, but if you miss it by a country mile 
there's a deeper effect?
    Do you want to go down the line again?
    Mr. Tempes. I hate to use the word nuance again, but I 
will, and when--it's a good system with the kind of caveats 
that we've all laid out here today, for identifying schools in 
need of improvement. But each school is individual, and you can 
take a look at schools that have the same, even a country mile 
off the mark, and one school is going in the right direction 
and another school is not doing anything.
    The system needs to be nuanced enough to say, okay, neither 
of you are meeting AYP, you can continue on the course you are 
going on, you we need to intervene in. And, this really can 
only be done at the local level. I think you need to empower 
state departments of education and districts to do that kind of 
work.
    Chairman Kildee. It does introduce a certain subjective 
element, right?
    Mr. Tempes. Without a doubt, and I mean I think that is 
better than to try to dictate from Washington one of these 
things will happen.
    Chairman Kildee. Thank you very much.
    Yes, Doctor.
    Ms. Liddell. We have an example of that in our school 
district. We have a high school, and I will say to you that 
this high school just received a six-year WASK recommendation, 
so it is considered an excellent high school. However, it has 
missed the AYP the last couple of years, and the reason is 
because of the participation rate. Just barely, it wasn't even 
very much, just a small percentage point.
    And, if we had the flexibility it would encourage those 
families, and parents, and teachers, and staff members, to know 
that they were working toward an attainable goal. They are in 
the 5th year of the sanctions now. It is getting pretty rough 
over there, and the morale goes down. After you've been in 
something that long, it gets really tough to keep people 
motivated and moving.
    And, that's part of the picture that we have to do, as well 
as the funding.
    Ms. Schott. I don't know why this came to my mind, but how 
would you decide how close was close enough? And where would 
that be decided? Would it just be participation rate? I mean, 
maybe it's sort of the danger of this status type 
accountability system, if there is a bar. If there isn't a bar, 
then, you know, or if the bar moves, you know, I'd want to know 
who is making that decision.
    Chairman Kildee. Thank you. I think you raise a valid 
question, because I don't know what the answer is either, and 
I'm glad to get this variety of ideas.
    Dr. Gonzalez, do you have any comments?
    Mr. Gonzalez. The same thing was where we made our growth 
and met our goals in all areas except our special education, I 
think it was four years ago, and it was the same thing. We made 
everything, except we almost made it there, so where do you 
draw that almost, not enough, or how big that country mile is?
    Chairman Kildee. Okay, Ms. Blake.
    Ms. Blake. In addressing your comment about a school that 
just misses the mark, and then a school that is consistently 
and deeply in trouble, I do believe that we absolutely need to 
make that distinction, and for schools that are truly 
struggling we need to provide support, not punishment, and not 
sanctions. Those schools are struggling many times because they 
are in high poverty areas, or they are dealing with a lot of 
special circumstances with students who have very special and 
specific learning needs.
    So, we need to provide a system that can discriminate 
between a school that just barely missed it because of a 
participation rate and a school that is deeply embroiled in 
very serious learning struggles with their students.
    The thing that needs to always be remembered is that the 
focus must stay on the student, and the student learning, and 
what support can we give to these schools, and these teachers, 
and the administrators, and the parents who are struggling to 
build a rich learning community, because right now we have 
teachers leaving the profession because we feel like our hands 
are tied.
    We spend years and years getting degrees, and getting the 
expertise, and then we get into our classrooms ready to work, 
ready to roll up our sleeves and work, only to find out our 
hands have been tied by unrealistic goals.
    We need to make these measurements attainable and 
achievable for our students over time, and that doesn't mean to 
say that they are never going to have an ultimate bar, but if 
the bar is up here, and my student can't speak English, or they 
come to me without prior education, or they come with special 
learning needs, we need to be able to establish a pattern of 
performance objectives that will allow the child to reach that 
goal and know they are not predestined to failure.
    Chairman Kildee. I appreciate the fact that we got somewhat 
varying and concurring responses to that from the richness of 
your own experiences. That's very helpful to me.
    And now, I yield such time as she may consume to the 
Gentlelady from California.
    Ms. Woolsey. I could just go on and on about this. This is 
so exciting, you've been wonderful. I just so appreciate you.
    Well, nuance and flexibility, it all goes together, and for 
Ms. Schott's question, how do you decide, well, first of all, 
look where we are. We are in Marin and Sonoma Counties. What if 
we were in East LA? I mean, I can say that, nobody--we don't 
have anybody up here that would defend that. I mean, there are 
parts of this country, even in our own state, that are in so 
much trouble, and I still don't think they are in trouble 
because it's their own fault. I believe it's because they need 
way more help than McDowell and Venetia needed, McDowell or 
McKinley in Petaluma.
    When we first got started with this, and I was arguing with 
Chairman Miller about No Child Left Behind, and my district, 
Marin and Sonoma Counties, some of the best scores in the 
country, I was absolutely sure we didn't have a big gap.
    And so, I called Dr. Wong in Sonoma, the Superintendent of 
Schools, and Mary Jane Burke here in Marin, and asked the 
direct question. My staff called them. Can the Congresswoman 
say, leave these schools that are doing so well alone, these 
school districts, because they are doing fine. And, both of 
them said, after they knew I wasn't going to put it all over 
the paper and get them in trouble, because that wasn't the 
intention, I just needed to know what I could argue from, they 
said, no, Congresswoman, even in our wonderful districts we 
have gaps, and, indeed, we have to do something about it.
    So, when we talk about nuance and flexibility, it will be 
clear if we allow ourselves this flexibility, which schools and 
which systems are actually investing in bridging that gap. I 
don't think there will be anything subtle about that, and it 
will be clear which ones can't without just extreme help, not 
punishment. I think that we should be a long way from punishing 
schools that are working so hard to meet these challenges.
    So, I have a couple of places I'd like to talk and ask you 
about. One is, Mr. Gonzalez, in your testimony you talked about 
what I call educating the whole student. So, talk about, if you 
will, how the system we've set up, if you see it, any of you, 
starting with you, Mr. Gonzalez, interfering with art, music, 
and geography, and civics, and history, I mean, when we get 
through with this we've got to have whole people out in our 
society.
    Mr. Gonzalez. And, we've had to emphasize so much on 
literacy, mathematics, and with the help of the literacy 
coaches and the state, or the district-mandated program, we put 
8:30-10:30 every morning is sacred reading time, 11:00-12:00 is 
writing time, after lunch from 1:00-2:00 is math time, and then 
we have that last hour of the day which we are having to 
contract out YMCA for PE, local--for music and art and drama, 
but the teachers themselves are so focused on the literacy and 
the math that the science, social studies are taking a back 
seat. And, like you said, it's very important that we educate 
and have these well-rounded students, but our teachers are so 
overwhelmed with so much that's being asked of them that we are 
asking outside agencies for help.
    And, we are very fortunate that we have those resources 
here. I know that in some districts and some school sites those 
resources aren't there, so that's something that, yes, we do 
struggle with, and we have to go outside of our school for 
help.
    Ms. Woolsey. And, Mr. Tempes, maybe you could talk about 
this on the same question, could we bring, as one of our 
measurements besides testing, that, indeed, these different 
schools are doing a good job on these other programs?
    Mr. Tempes. Without a doubt. I mean, it's clear that NCLB 
inadvertently has resulted in a narrowing of the curriculum in 
ways that Pepe just described.
    I'll give you a good example. In California, we do a 
physical fitness test, I guess it's the 5th and 7th grade every 
other year, those are standards, you know, and they are 
actually very practical real standards. We've got an epidemic, 
everybody knows about obesity and everything, we've got 
standards, nobody pays any attention to them. Nobody is held 
accountable for making any progress on those, not to mention 
music, art.
    We'll see a jump now in science education, because science 
is being folded in, but, you know, the system has that 
consequence. And, the people that I talk to, my friends in 
education, are particularly worried about civics education.
    Ms. Woolsey. Yes.
    Mr. Tempes. Who is going to be voting, who is going to be 
making these decisions? Pretty scary.
    Ms. Woolsey. Yes. Before you, forgive me, I didn't say 
anything about PE, you know, for shame.
    Mr. Tempes. We have these measures in place now, we just 
need to use them.
    Ms. Woolsey. Right, that's right.
    Ms. Liddell. Those are very good points, and we have, both 
the secondary and elementary levels, we have the same critical 
elements going on that my colleagues have, where there's just 
not enough time in the day, or in the school year, to get 
everything in.
    So, we do the best we can and be creative about our time. 
We bring in people for after school programs to try to boost 
our students in different areas, and we have certain music 
programs that occur after school outside the school day.
    All of those take money. Within the school day, if we have 
a high school student who comes to us in, let's say, the 10th 
grade, and does not speak English, and has not had very much 
schooling in the past, we have ten years of education to impart 
on that person, and he's supposed to take the California high 
school exit exam right then, which is part of the AYP.
    Ms. Woolsey. Well, and can I interrupt?
    Ms. Liddell. Certainly.
    Ms. Woolsey. He's also supposed to want to stay in school.
    Ms. Liddell. Right.
    Ms. Woolsey. And, he feels humiliated.
    Ms. Liddell. Exactly right, and so, what we've learned to 
do now is to offer support programs, two periods of English and 
writing, and two periods of math and all of those kinds of 
things, but then you lose the time for the other elements in 
schooling.
    Without more funding, without money to be able to add back 
in either time, or creative ways of doing things, our hands are 
tied.
    Ms. Schott. You alluded to the too-short day, it's a 
problem. When the California framework, the framework for 
English language arts was being released, recommends two and a 
half hours a day of language arts for students in 1st through 
3rd grades, we run out of time around, I don't know, noon, 
there just isn't enough.
    So, at McDowell we have taken the stance that reading 
research over the last 15 years tells us as kids leave 1st 
grade not reading at grade level they have a one in eight 
chance of ever reading at grade level. We've got to get those 
kids reading.
    If we get kids reading and proficient in math by the time 
they go to their junior high or middle school experience, well, 
first of all, we are going to have some really happy teachers 
in our district at the 6th and 7th grade levels, and they are 
going to be able to take on the enrichment, and they won't be 
having to do the double periods of language!
    Ms. Woolsey. Except for the new kids.
    Ms. Schott. Well, except for newbies, yes, you fold them 
in, but the kids who have been here forever, if we can get them 
into grade level reading, then the intermediate and secondary 
schools can take it from there and do the science, and the 
social studies, and all that fun stuff.
    Ms. Woolsey. Melanie?
    Ms. Blake. Thank you. I completely agree with my colleagues 
here at the table and the comments they've made about not 
enough time to teach, insufficient resources interfering with 
academics, two math periods and two English periods. All of 
that we are seeing happening in our classrooms.
    I'd also like to point out one other critical thing that 
teachers are noticing in their classrooms, and that is, that 
with the culture of testing we are so busy teaching students 
what to think that we are losing the critical thinking that 
allows students to teach themselves, that allows students to 
teach each other, and that allows them to learn how to think 
for themselves.
    We want to have educated citizens, and if we wait until 
high school to try to fold in geography, and civics, and 
economics, and critical thinking skills, and to become good 
citizens, and what it means to be a good citizen, we've waited 
too long, and that's the problem with front loading so much of 
just testing and these kind of academics. We need to be able to 
work on the whole child early on.
    Ms. Woolsey. So, the Chairman has generously allowed me to 
ask another kind of question.
    I want to talk about the impact of the testing and the 
labels that come along with it, the school labeled in 
improvement, and the idea of if a school is in improvement that 
students can immediately transfer to another school.
    I shouldn't tell you what my thoughts are, but I really 
believe that that's backwards. I think we should have as much 
help for that school as possible for much longer than one year, 
and then, but you tell me, is it positive to leave the school 
and go to another school?
    First of all, in Petaluma, where do they go?
    So, respond to that, about, having the option, you go now, 
you go where?
    Ms. Schott. We've had fewer than five children leave our 
school in the three years that we've had to offer choice. They 
go, in the first year they went to McKinley, because McKinley 
wasn't in program improvement, and it's walkable. I mean----
    Ms. Woolsey. Guess what? It is now.
    Ms. Schott. Oh, I know. So, now they are offered Valley 
Vista, but I'll give you an example. I took students from our 
school over to the School Board meeting, 6th graders, which is 
across town, past Valley Vista, and as we were driving into 
Petaluma one of the students said to me, is this Santa Rosa? I 
mean, we were five minutes from my school.
    And so, for us to tell parents who walk to our school 
currently, well, we are not--you know, we aren't doing a very 
good job so you can take your child over to Valley Vista, they 
don't even know where Valley Vista is, so they wouldn't send 
their kindergartner there.
    So, we've had about five students leave. We are the fastest 
growing school in our district, and so what it tells me is that 
NCLB sanctions are less important than a place where parents 
like having their kids go to school.
    That doesn't let us off the hook, we still need to be 
educating our kids, even if they aren't holding that as their 
highest standard.
    Mr. Tempes. I would agree. I don't think there's--the 
people who are going to move their children to another school 
for academic reasons did this long before the school was 
designated as program improvement. And, I think it sends the 
wrong message that you are bad, and now we are going to take 
anybody who is interested enough to move their kids out of 
there, and that will only make the things more difficult.
    It's system improvement, not system undermining, that we 
ought to be interested in.
    Mr. Gonzalez. The tone that you set the parents is, our 
school is not good enough, take your kid to where they are 
providing a better education, whereas, it's the opposite. I 
mean, those teachers are probably working just as hard, if not 
harder, than any other school district or school that isn't 
program improvement.
    So, the one that you are sending to these parents is just 
really, really negative in general.
    Ms. Liddell. Go ahead, I'll go last.
    Ms. Blake. In Sonoma Valley, what we have seen is, for 
example, with El Verano Elementary School, they are now in 
fifth year of program improvement, and the parents, and the 
staff, and the children, have rallied around that school, and 
the community has rallied around that school, and it's a 
terrible notion to even think that that really powerful 
learning isn't going on in this elementary school. The children 
are making academic progress. It doesn't always show up in the 
AYP in the way they would like it to, but we can see those 
scores coming up every year for the students that come in and 
stay year after year.
    And so, actually, we've kind of seen a funny reverse 
effect, where people have rallied around these schools and 
said, you aren't going to label us as a failing school. We know 
we aren't failing. We know our children are getting a good 
education.
    And so, hopefully, we can build that kind of community to 
say, we don't have to live with that label. We don't have to be 
defined by this one test, this one year.
    Ms. Woolsey. And, where would those kids go anyway? They 
would have to be bussed somewhere from El Verano.
    Ms. Blake. That's correct, most of the other elementary 
schools are already impacted, and certainly there's another 
school up the road, that's Flowery, they are now also in 
program improvement, year one, and people are actually busing 
their children or driving their children into Flowery because 
they turned it into a dual immersion school. And so, they are 
looking for creative ways to keep people connected to their 
schools and the learning.
    Ms. Liddell. There have been so many good ideas, I hardly 
have anything to add, but I do think that when we send out the 
letters at the beginning of the year, it is heartbreaking for 
those schools to have to send that out, for the principals and 
the teachers. It is demoralizing for them to have to do that, 
and we do have very few students who actually transfer. We 
offer a few schools for them to transfer to, but we do not have 
a lot of takers.
    Some of our schools who were labeled program improvement 
actually are some of the finest schools in our district, and 
they have shown the great growth that each year for the last 
five years that is really wonderful and powerful for people to 
see. And, we let the community know that.
    So, it is useful in that way, but it is not useful as a 
tool at the beginning of the year to send out to the community.
    Ms. Woolsey. Well, I thank you.
    I just want to say a couple words before, the President--
the President, don't we wish, before the Chairman summarizes.
    But, when we first started this, I live in Petaluma, it 
became very clear to me I was playing a major role in 
education, and maybe I didn't know all that much about it, and 
it had been a long time, because my kids are in their 40s, and 
my grandchildren hadn't quite started school yet, because my 
oldest grandson is in the 1st grade now.
    So, I asked to volunteer for a morning a week for a 
semester at McKinley School in Petaluma. I thought I'd pick the 
school closest to my house that actually had a diverse 
population.
    And, when they nicely agreed, thinking I was doing 
something to get PR and press and all that, and when they 
realized, indeed, that wasn't why I was doing this it became, 
it was really nice.
    I was only an hour on Monday, every Monday of the semester, 
and then I had to get on an airplane and go to D.C. I went to a 
different classroom for one hour each week, and I'm telling 
you, and I participated, I was a volunteer, I wasn't the 
Congresswoman standing around watching, I volunteered. These 
were the smartest kids, these were the greatest teachers, that 
was the most darling school I've ever been--I've ever seen, I 
mean, I go to them, but they give me the best of the best when 
I go.
    One hour, and I have more energy than 95 percent of the 
people on earth, and everybody here can tell you that, and my 
staff, I was exhausted. The work that goes, and the energy, 
well, the last week I was there McKinley got their label of not 
measuring up, and I'm telling you, these teachers, the 
principal, they had tears in their eyes, and it was by just a 
barely percentage point. And, it was very clear to me then that 
you cannot have one standard and start labeling schools that 
are working with some of the hardest challenges we have.
    So, I thank you for bringing this to us. We have another 
bite at the apple. We will be working together, and we will 
take everything you've said today into account.
    So, thank you very much.
    Chairman Kildee. Thank you, and I follow through on some of 
your very good questions there.
    Right now, we have at the end of the second year school 
choice, that's the effect, right, and at the end of the third 
year supplemental educational services. Now, this is maybe 
just--would it help at all, it's not a major change, if we 
flipped those two.
    Ms. Liddell. It would be good to look at all that chart, 
and think it through again, and think through how the sanctions 
fold together, and how they can be supported, because they 
need--it takes at least five years to make the difference that 
needs to be made in a school.
    Chairman Kildee. Anyone else?
    Ms. Schott. I would only support anything having to do with 
supplemental educational services if that was a program that 
was revisited from the bottom up.
    As I mentioned in my testimony, there's one provider within 
walking distance of my site. Online providers, I don't--I've 
been given information that we are supposed to check Interpol 
clearance on online providers, not just--because you can't get 
fingerprints, and they may not be in our country.
    So, SES is a Medusa, it needs to be--well, and, the people 
who are providing the tutoring to our most impacted students 
are not as well trained as the people in their classrooms.
    I just think that can't be effective.
    Ms. Woolsey. Mr. Chairman, will you yield just a minute on 
that? That's one of the fixes that I've drafted, is that the 
SES programs have to live up to the same standards as the 
teachers and the districts. I mean, and how do we measure them? 
And, we don't.
    Ms. Schott. And, they cost a lot of money.
    Mr. Tempes. If I could just chime in with Mr. Kildee's 
question. You can do that if you want, it won't make any 
difference. Neither of these programs are big players in ed 
reform, and I agree with Liz Schott, you just ought to 
reexamine them and look for, the big word out of Washington is 
scientifically-based research. So, ask for the scientifically-
based research on how those two are affecting students, student 
achievement.
    Ms. Liddell. We had one provider on our list, and this is a 
true story, who was an acknowledged provider, came in to our 
reading office and asked for information on how to do it, 
because they didn't know how to do it, and didn't have the 
materials. We had the same thing.
    This is really incredible, because that is, if you don't 
have the child or the older student, whoever is receiving the 
service, receiving the same type of service that they are 
getting in the school, it's not going to do them any good.
    Ms. Woolsey. Or better.
    Ms. Liddell. Or better, exactly.
    Ms. Woolsey. Yes.
    Ms. Blake. I would like a chance to respond also to that 
question.
    In our school district, going back to El Verano, we had 
staff that encouraged parents to take advantage of that 
opportunity to seek outside assistance, and shortly later 
parents were coming back with complaints to the school district 
asking who monitors these people anyway, and how did they get 
licensed to provide this kind of follow-up support.
    And so, even with that opportunity people overwhelmingly 
came back to the school for that additional report, which 
brings me to the need for funding for these kind of support 
systems in our own schools. We are the experts, we are trained 
to provide that, that's why we are called teachers. And, we 
need the opportunity to be able to provide that, but in order 
to do that we need multiple measures, and we need a fully-
funded system that allows us to really intervene with research-
based methodologies that we know will make a difference with 
our students.
    Ms. Liddell. And, that don't stop after one year.
    Ms. Woolsey. Well I should go there.
    Chairman Kildee. You never left there, you know.
    Ms. Woolsey. Here we go again.
    Chairman Kildee. It was interesting, the term failing 
school doesn't appear in the law, and no matter how many times 
you say that, it does occur, though, doesn't it? You get that 
all the time, in Michigan, in Virginia, the term failing school 
has become part of the lexicon, even though it nowhere appears 
in the law. So, it's one of the things that is a reality that 
you have to face, probably more than just a public relations 
thing, too.
    People say, well, that's just a public relations talk to 
editorial writers, and, you know, they'll understand, but the 
word failing school has come into the lexicon, and we really 
want to make this a better bill.
    As I said, we'll probably keep the same basic structure, 
but that chart, you told us to look at our own chart, right, of 
the effects, consequences, penalties, whatever we want to call 
them, right, that certainly, you know, wasn't written--was 
written in Washington, D.C., right? We've learned a lot today.
    California has so much to offer us, as you've been told so 
many times, in so many areas of your life you are like a 
country out here. Your economy is bigger than so many other 
countries. And, your educational system is, you know, one 
that's, it's a great educational system.
    Every educational system has problems, but we've learned 
some things today, and people who really love education, and 
love kids, and we want to go back and see what we can do to 
help you carry out your job.
    Ms. Blake, you mentioned, maybe I'm paraphrasing a bit, 
when I taught I taught at a school for ten years, I loved it, 
but creativity was a very important thing. And, very often when 
you are, you know, arranging, as you mentioned, Mr. Gonzalez, 
arranging your hours to make sure they get this, and this, that 
you really don't have much time for the creativity and some of 
the things that really are important for a person's growth.
    As I say, we'll probably keep the same basic structure, but 
each one of those elements in that structure can have much more 
flexibility. And, as you mentioned, Dr. Gonzalez, that chart 
certainly was not written at Mt. Sinai, right?
    Ms. Liddell. It needs to be looked at, you might want to 
consider having a group of educators work with the Committee on 
that, to look at it and give some input into what could be, and 
what flexibility means at the school site.
    Chairman Kildee. And, if you could do that, some have done 
that. Minnesota has got educators together, and they've sent in 
a list of some specific changes. Another group gave us 
something, and if you could, I mean, the five of you could sit 
down here probably, and come up with some idea on--because 
those consequences, effects, penalties, whatever we want to 
call them, we generally try to use the neutral term effects, 
right, of not reaching AYP, but again, you could help us on 
that.
    And, I really appreciate, this has been an excellent panel, 
people who really are right there in the front line, and I very 
much appreciate it, and at this point I want to remind those 
who did not testify formally as witnesses that you may submit 
your testimony, and we will make sure it's printed in the 
written record, and you can submit that by a week, by May 4th, 
week from today, and you can get, I think Mr. Horwich has cards 
right here with his e-mail address on that, and we'll be happy 
to do that.
    Again, I'm glad that, Lynn, you asked us to come out here, 
and all members, this is for the record here, have seven 
calendar days to submit additional remarks, and any member who 
wishes to submit follow-up questions, we may have some follow-
up questions for the panel, should coordinate with the Majority 
staff within the requisite time.
    And, without objection, this hearing is adjourned.
    [Additional statements entered into the record by Ms. 
Woolsey follow:]

        Prepared Statement of Torri Chappell, Mother and Teacher

    Why No Child Left Behind Needs to be ``Left Behind'' and replaced 
with another plan that:
    <bullet> focuses on LEARNING instead of TESTING,
    <bullet> encourages teacher REFLECTION instead of BLIND COMPLIANCE,
    <bullet> promotes professional COOPERATION instead of COMPETITION,
    <bullet> results in INSPIRATION instead of PUNISHMENT AND FEAR.
    I am encouraged that people are beginning to examine NCLB and 
engage in conversations about its future. I believe that it needs to be 
discarded and replaced by a plan that is created by reflective 
educators who are actively involved in teaching and inspiring young 
learners instead of publishers, politicians and researchers who do not 
have actual experience with children and how children learn in a REAL 
situations, not situations created for testing or research purposes. 
The well-being of the children needs to be at the forefront. The focus 
needs to be on learning NOT testing.
    NCLB offers a culturally biased, narrowly defined view of success 
which relies solely on test scores to define success and only offers 
punitive measures to change situations that don't ``measure up''. The 
focus on public display of API and AYP creates destructive competition 
in communities and legitimizes the unsound belief that a test score can 
accurately measure a child's understanding or learning, a teacher's 
competence, a principal's ability to lead and the overall success of a 
school If the ADULTS in business and government were subjected to an 
annual test to measure if they were meeting standards and to determine 
their success, there would be an outcry of unfairness. Knowing this, 
how can anyone think that this is a sound approach with CHILDREN, 
children as young as 7 years old who still believe in Santa Clause and 
the Easter Bunny.
    Standardized tests measure low level thinking. It is time we came 
up with a way to encourage and value higher level thinking. By focusing 
on `standards based testing' to educate our children we are actually 
LOWERING our standards of what kind of thinking we value and hope the 
next generation is capable of.
    ``Weighing the pig doesn't make it grow.'' * * * ``Testing the 
child, does not make him learn.'' These high stakes tests do not inform 
the teachers or parents of what children do or do not understand. They 
are not allowed to see the tests after they have been scored. There is 
no way of knowing if the child missed a question because of careless 
error, language or lack of content understanding. The scores are not 
helpful in improving individuals' growth and learning.
    Inspiring, excellent teachers are being driven out of the 
profession of teaching because NCLB does not respect teachers or 
children. This is affecting the fabric of our society and must be 
changed.
    We need to develop an assessment system that:
    <bullet> Informs teaching by determining understanding of ideas/
concept not just the memorization of facts or the ability to find 
somebody else's `right' answer.
    <bullet> Includes useful feedback and a way to incorporate that 
feedback into future learning/teaching.
    <bullet> Uses multiple measures.
    <bullet> Uses examples of authentic student work not just fill in 
the bubble tests.
    <bullet> Respects different kinds of learners/multiple 
intelligences.
    <bullet> Is culturally unbiased.
    <bullet> Encourages student self assessment.
    <bullet> Measures on a scale of naive to sophisticated NOT right 
and wrong.
    I hope that our Congress will have the good sense to respect 
children and teachers enough to get rid of NCLB and put in place a 
different system that will be focused more on learning on growth than 
fear and punishment. The future of our country depends on it.
    ``Everything that can be counted does not necessarily count; 
everything that counts cannot necessarily be counted.'' Albert Einstein
                                 ______
                                 

  Prepared Statement of Lenard C. Greenwood, Teacher, Montgomery High 
                         School, Santa Rosa, CA

    To the Honorable Representative Dale Kildee: I would like to thank 
you Chairman Kildee, Congresswoman Woolsey and Members of the 
Subcommittee for the opportunity to be present at the Field Hearing and 
voice my Testimony on this crucial issue that affects us all. It was a 
genuine pleasure to attend and talk with you Sir.
    Although this misnamed ``No Child Left Behind'' law has so many 
obvious problems that require serious attention before contemplating 
reauthorization, I will attempt to direct this testimony towards my 
personal teaching experiences. I have witnessed the methodic and 
irrational dismantling of Public Education since ``NCLB'' was forced 
into our school system.
    As we spoke of, following the hearing, I have had the pleasure of 
teaching English, Theatre Arts, Creative Writing and now full time 
Photography at Montgomery High School for the past 20 years. Throughout 
the years, it has always been an increasingly difficult struggle to 
secure enough funding to offer most of these courses.
    <bullet> At present, my district gives me $150.00 a year to run 
five classes of Photography with over 165 students year round. Each of 
my other Fine Arts colleagues receives the same small funds for a full 
five-class load. Unbelievable-YES! But true.
    <bullet> The Arts in California are under attack. 61% of all our 
schools here in California do not have one full time Arts instructor.
    <bullet> 40 % of our schools lack any Music program. WHY? FUNDS!
    The Arts, creativity, is the one beautiful essence of the human 
heart, soul and mind which sings to the world, ``I'M ALIVE''. As Art 
teachers, we open the minds of our students to allow creativity to 
grow, to be nourished, to be expressed upon a world stage that grows 
more and more violent and impoverished. The human soul does not grow by 
being drowned in Academics with no chance for the spirit to create and 
blossom.
    In fact, it is The Arts, in all its form, with its magnetic draw to 
create that brings so many students to school. It is The Arts that open 
ones mind to the possibilities in the adventures of Math, Science, 
English and History. It is the blend of Arts and Academics that builds 
and molds the whole student. And, without The Arts, we are doomed to 
higher drop-out rates, falling test scores and a future of mindless 
adults who must only pacify themselves with their latest video games or 
television show.
    Today's high-tech society has altered the Parent/Family engagement 
of yesterday and made it more challenging for students to stay focused 
with learning. But creativity doesn't have to disappear while 
technology takes its place. I believe it is of the utmost importance 
that we reinvest in Vocation Arts and Programs which open doors to our 
students to Sustainable Living Education and Real Life Courses that are 
meaningful. Students want and need to learn Real Life Skills that they 
can use in every day life. As we attempt to heal the Earth from decades 
of human abuse, our students need courses in Elementary and Secondary 
Education which address the impending issues they will be facing as 
adults entering into their inherited generation:
    <bullet> Global Climate Change
    <bullet> Alternative Energy and Production
    <bullet> Organic Gardening and Agriculture
    <bullet> Safe Food Production and Health
    <bullet> Mass Transit and Pollution
    <bullet> Sustainable Living and Green Building
    <bullet> Fair World Trade and Labor
    <bullet> Cross-Cultural Arts and Communication
    <bullet> Global Collaboration for Peaceful Commerce
    <bullet> Personal Money Management and Finance
    These positive and essential education programs should be fully 
funded and mandatory in the Public School System along with The Arts. 
We must start thinking progressively and realistically with highest 
urgency toward Stewardship of our Planet Earth. We must not wait until 
students are of college age. We must open our student's minds to think 
critically and creatively.
    We became teachers to help students learn, not to test them into 
the ground. Teaching to the test will not motivate teachers to come 
into the field or students to want to come to and stay in school. 
Students do not gain the essential skills they need in this ever-
changing world by taking endless tests only for a Federal or Corporate 
scorecard. We must test and assess their progress by many different 
means, not by the current ``one size fits all'' method. Each school, 
each student, in every community is unique. Individual schools need 
more control and flexibility in what works best for their student 
population.
    If we measure student learning by the overly simplistic ``setting 
the bar at a certain level'', then we miss all those special students 
who can run, throw, swim, hit and perform at even higher levels of 
assessment.
    Therefore, I ask The Committee to listen to the teachers in the 
trenches, hear the hollow sounds of creativity draining from the young 
minds of today, and reevaluate the essential changes needed to properly 
execute the $71 billion under funded ``NCLB''. Or better yet, go back 
to the ESEA drawing board with all the data the Committee has gathered 
around America, and fully implement and fund The Arts and Essential 
Real Life courses in our public schools. Priorities in our Country need 
restoration.
    For years now from the students I hear the desire to learn more, to 
know what is important in this world they are inheriting. I see them 
losing their natural inventiveness, ingenuity and imagination; the void 
of creativity lost as apathy takes over. They crave to gain knowledge 
and discover their own skills that will shape their lives in a positive 
way. I see my fellow teachers frustrated, morally drained by the 
continuing attacks upon their unique abilities that they long to 
utilize, while their salary is whittled away and Health Insurance 
Premiums skyrocket and become an unfeasible financial burden. Dedicated 
teachers once honored and distinguished for their unique abilities and 
patience are being methodically reduced to automatons. Many are leaving 
their cherished profession largely due to ``NCLB'' and the Corporate 
undermining of our Public Education System.
    I ask The Committee to give consideration to establishing a 
committee whose sole purpose is to Protect and Support The Arts in 
Public Schools.
    Every child should have the opportunity to create, to build self-
esteem and self-expression through The Arts. Since the drastic changes 
from the ESEA to the so called ``NCLB'' law, we have all lost this 
hugely valuable aspect of humanity in our Public Schools. We owe it to 
our youth to open every door possible to their creativity. We can only 
do this by fully funding The Arts Programs across America. And we can 
only be successful with implementing any aspect of any Federal 
Education Mandate by fully funding those laws.
                                 ______
                                 

 Prepared Statement of Diane Phillips, Parent of Public School Children

    Dear Chairman Kildee and Congresswoman Woolsey: My name is Diane 
Phillips. I am a parent of two children in the California public school 
system. I am writing to you to register my concern about the No Child 
Left Behind (NCLB) legislation in response to the recent House 
Subcommittee session on education Friday April 27, 2007 at the Marin 
County Civic Center.
    It is my opinion that the effects of NCLB on our public schools 
have so far been catastrophic. Our schools are now severely limited by 
NCLB's current punishment and reward approach to achievement and 
accountability. High-stakes tests overshadow all teaching and learning, 
turning our schools into joyless institutions.
    Certainly there are poorly performing public schools, as well as 
poorly performing teachers, but these are problems to be dealt with on 
a case by case basis, not by a blanket law that blames educators and 
students.
    While all children can learn, not everyone learns in the same 
fashion, or within a set time frame. Please consider the dramatic 
variances in school readiness, grade level skills and socio-economic 
status among children. None of these factors figure into the logic of 
NCLB. How is this law helping the hundreds of thousands of children who 
go to bed hungry, who lack healthcare and who do not come to school 
ready to learn?
    The NCLB legislation removes teachers, students, parents and local 
communities from active involvement in what will be learned and how to 
measure growth and development. Unlike authoritarian countries, 
democracies believe in the capacity of ordinary individuals to direct 
the affairs of their communities, especially their schools. Democracy 
requires its members to participate in the political, social, cultural 
and economic institutions affecting their development.
    It is my belief that there are so many inherent problems with NCLB 
that it must be eliminated, not re-authorized. What is needed instead 
is a legislation calling for greater local involvement in policy-making 
and implementation. Recognizing that there is no single approach that 
fits every learning context, I encourage local choice in deciding 
curriculums. While I respect the determination behind the prescription 
for universal success, it is not realistically achievable.
    It is my hope that there will be further investigation of this 
legislation before Congress casts another vote.
    Thank you for your time and concern.
                                 ______
                                 

  Prepared Statement of Amy Valens, Retired Teacher, Lagunitas School 
                     District, San Geronimo School

    Dear Chairman Kildee and Congresswoman Woolsey: The testimony that 
we heard today was indicative of the amount of work we need to do to 
become a well-educated society. We have not even begun to define what 
we mean by well educated. We focus on two comparatively ``easy'' parts 
of the puzzle: English language literacy and mathematics. Because high 
stakes tests to assess levels of language literacy and math skills must 
by their nature look at these skills simplistically, teachers find 
themselves forced to address these subjects without the context of who 
they are teaching and why one would want to have these skills. We heard 
several speakers explain that in meeting these demands they must ignore 
or relegate to the fringes, other equally important areas of literacy, 
such as social studies, science, the arts, civics, social and emotional 
literacy, and even physical education. I wonder what the content of 
their lessons look like!
    I recently attended the 2nd Cesar Chavez Education Conference at 
Fresno State University. Teachers using Reading First (lauded by 
several of your witnesses) talked about the terrific constraints placed 
upon them by this program, which expects a teacher to rigidly follow a 
script for success. What kind of success are we settling for? I hope 
you will seek testimony from Dr. Elaine Garan of Fresno State 
University about that! We may have schools that are meeting the goals 
of NCLB, that are in at least as much trouble as the ones that are not. 
If they are really spending, as at least two witnesses indicated, most 
of their day on memorization skills related to reading and math without 
time for higher-level thinking, experiential learning, socialization, 
and creativity, the students who succeed are being prepared for low-
level jobs indeed. They are being given little chance of developing 
their imaginations: thinking capacities that we crucially need as a 
society. I was particularly dismayed by Principal Schott's remark that 
creativity could wait until fifth or sixth grade. I hope she is 
overstating her case, but I fear she is not. What a dreary world she 
wants to offer her young charges! What will the drop-out rate look like 
if this fashion, that I wince to call ``teaching'', is continued?
    On a more positive note, I was impressed by the questions that each 
of you asked the panel. The areas you have identified are the crucial 
areas to address. On top of my personal experience, having taught since 
1968 in a variety of settings from inner city schools in Dayton, Ohio 
to an alternative public school in semi rural California (I estimate 
that I have personally interacted at some depth with about 1,500 
students), I have spent the last two years reading and listening 
extensively to the testimony of a wide range of educators. The key is 
that we all want children to succeed. The question is how do we measure 
success? No matter how tempting it is to look for a panacea, there is 
not one way to educate all children. So why do we think there is just 
one way to measure them?
    It is not hard to find methods beyond standardized tests that will 
give accurate, less costly, more beneficial assessments of the ability 
of a school to provide a good education to its pupils. The science 
behind these other methods is at least as legitimate, being based on 
research in many domains that informs the best practices taught in our 
schools of education. That there will be a degree of subjectivity in 
these other methods goes without saying. Standardized tests are also 
not without subjectivity, and David Foster, of the Noyce Foundation, 
offers compelling evidence that rising test scores correlate highly 
with learning how to take the particular test, not necessarily a 
generalized improvement.
    We could use criteria developed by a panel of preeminent educators 
as the most valuable part of assessing our schools. Using these 
criteria, local evaluations could be carried out by qualified members 
of the community a school serves, in tandem with educators who do not 
have a stake in the individual schools they are observing. The results 
could be shared collegially, with follow through having the intent to 
improve, not punish. Testing, when applicable, could be specific to 
concerns expressed at the local level. Teachers would participate in 
setting goals for their specific students, and be able to access 
information obtained for their future teaching. To fund this, take away 
the huge amount going to high stakes testing, and put it into these 
human resources.
    Barring changes of this magnitude, parents have every right to 
question the validity of one-size-fits-all high stakes testing, and opt 
their children out of those tests. Parents such as those in the school 
I just retired from, who have made a strong philosophical decision 
about how they want their children taught, refused in great numbers to 
have their children tested before NCLB entered the picture. These, and 
others like them, are not people being led down a path by 
administrators wanting to hide local conditions. They are 
conscientiously raising their children. If punishment were not part of 
NCLB's structure, no one would need to question the motives of such 
parents, who prefer to see their children's teachers teaching, instead 
of proctoring.
    The bluntness of Annual Yearly Progress as a deciding factor was 
touched on by most of the witnesses. It becomes close to ludicrous in 
some situations. In small schools, such as mine, where there may be 
only 11 students of a particular grade level, one student's bad day, or 
another student's brilliant one will alter the picture entirely. This 
is equally true of API scores, whose publishing in the papers seems to 
serve the real estate community more than any other group.
    I doubt that I have said anything that you have not heard before. 
But hopefully it helps to hear one more voice for truly raising all our 
children to become fruitful and creative members of society.
    Thank you for your patience and your concern. I have included a 
list of experts whose testimony I hope you will seek before you decide 
how to ``fix'' NCLB.
            Please consider:

        Dr. Elaine Garan, Fresno State University.
        Dr. David Foster, Noyce Foundation.
        Dr. Steve Hart, Fresno State University.
        Dr. Glen Devoogd, Fresno State University.
        Dr. Mark Phillips, San Francisco State College.
        Dr. Paul Crowley, Sonoma State College.
        Dr. Maryann Nickel, Sonoma State College.
        Dr. Phillip Kovacs, University of Alabama, Huntsville.
        Ms. Susan Ohanian, writer and educator.
        Dr. Peter Farruggio, University of Texas Pan American.
        Ms. Susan Harman, CalCARE.
        Mr. Rog Lucido, Educators and Parents Against Testing.
        Dr. Gerald Bracey, George Mason University and University of 
        Arizona.
        Dr. Ken Goodman, University of Arizona.
        Ms. Yetta Goodman, University of Arizona.
        Dr. Richard Allington, University of Tennesse.
        Dr. Monty Neill, FairTest.
        Dr. David Berliner, University of Arizona.
        Mr. Richard Rothstein, Economic Policy Institute, and Harvard.
                                 ______
                                 
    [Whereupon, the hearing was adjourned at 11:16 a.m.]

                                 <all>

</pre></body></html>
